<html>
<title> - VOTING IN AMERICA: THE POTENTIAL FOR POLLING PLACE QUALITY AND RESTRICTIONS ON OPPORTUNITIES TO VOTE TO INTERFERE WITH FREE AND FAIR ACCESS TO THE BALLOT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




                                                              
  VOTING IN AMERICA: THE POTENTIAL FOR POLLING PLACE QUALITY AND 
   RESTRICTIONS ON OPPORTUNITIES TO VOTE TO INTERFERE WITH FREE 
                    AND FAIR ACCESS TO THE BALLOT

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JUNE 11, 2021

                               ----------                              

      Printed for the use of the Committee on House Administration

                              BOOK 1 OF 2
                              
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

                              


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
         

    VOTING IN AMERICA: THE POTENTIAL FOR POLLING PLACE QUALITY AND 
 RESTRICTIONS ON OPPORTUNITIES TO VOTE TO INTERFERE WITH FREE AND FAIR 
                          ACCESS TO THE BALLOT

                              BOOK 1 OF 2
                              
                              

 
    VOTING IN AMERICA: THE POTENTIAL FOR POLLING PLACE QUALITY AND 
 RESTRICTIONS ON OPPORTUNITIES TO VOTE TO INTERFERE WITH FREE AND FAIR 
                          ACCESS TO THE BALLOT

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2021

                               __________

      Printed for the use of the Committee on House Administration

                              BOOK 1 OF 2
                              
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
         
         
                          ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
45-527                 WASHINGTON : 2021          
         
         
         
         
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
G. K. BUTTERFIELD, North Carolina      Ranking Member
PETE AGUILAR, California             BARRY LOUDERMILK, Georgia
MARY GAY SCANLON, Pennsylvania       BRYAN STEIL, Wisconsin
TERESA LEGER FERNANDEZ, New Mexico



                            C O N T E N T S

                              ----------                              

                             JUNE 11, 2021
                             
                                 BOOK 1

                                                                   Page
Voting in America: The Potential For Polling Place Quality And 
  Restrictions On Opportunities To Vote To Interfere With Free 
  And Fair Access To The Ballot..................................     1

                           OPENING STATEMENTS

Chairman G. K. Butterfield.......................................     1
    Prepared statement of Chairman Butterfield...................     4
Hon. Bryan Steil, Ranking Member.................................     5
    Prepared statement of Ranking Member Steil...................    12

                               WITNESSES
                                Panel 1

Stephen Pettigrew, Director of Data Sciences, University of 
  Pennsylvania...................................................    16
    Prepared statement of Mr. Pettigrew..........................    19
Jesselyn McCurdy, Interim Executive VP for Government Affairs, 
  Leadership Conference on Civil and Human Rights................    27
    Prepared statement of Ms. McCurdy............................    29
Kevin Morris, Quantitative Researcher, Democracy Brennan Center 
  for Justice....................................................    36
    Prepared statement of Mr. Kevin Morris.......................    38
Mimi Marziani, President, Texas Civil Rights Project.............    48
    Prepared statement of Ms. Marziani...........................    50
Donald Palmer, Chair, U.S. Election Assistance Commission........    64
    Prepared statement of Mr. Palmer.............................    66

                                Panel 2

Michael C. Herron, Professor, Dartmouth University...............    81
    Prepared statement of Mr. Herron.............................    84
Gilda Daniels, Director of Litigation Advancement Project........    98
    Prepared statement of Ms. Daniels............................   100
Danielle Lang, Director, Voting Rights, Campaign Legal Center....   122
    Prepared statement of Ms. Lang...............................   124
Isabel Longoria, Elections Administrator, Harris County, Texas...   166
    Prepared statement of Ms. Longoria...........................   168
Ashlee N. Titus, Board Member and Corporate Secretary, Lawyers 
  Democracy Fund.................................................   191
    Prepared statement of Ms. Titus..............................   193

                        QUESTIONS FOR THE RECORD

Stephen Pettigrew, Director of Data Sciences, University of 
  Pennsylvania, answers to submitted questions...................   218
Jesselyn McCurdy, Interim Executive VP for Government Affairs, 
  Leadership Conference on Civil and Human Rights, answers to 
  submitted questions............................................   222
Kevin Morris, Quantitative Researcher, Democracy Brennan Center 
  for Justice, answers to submitted questions....................   228
Mimi Marziani, President, Texas Civil Rights Project, answers to 
  submitted questions............................................   231
Donald Palmer, Chair, U.S. Election Assistance Commission, 
  answers to submitted questions.................................   237
Michael C. Herron, Professor, Dartmouth University, answers to 
  submitted questions............................................   239
Gilda Daniels, Director of Litigation Advancement Project, 
  answers to submitted questions.................................   242
Danielle Lang, Director, Voting Rights, Campaign Legal Center, 
  answers to submitted questions.................................   244
Isabel Longoria, Elections Administrator, Harris County, Texas, 
  answers to submitted questions.................................   250

                       SUBMISSIONS FOR THE RECORD

Appendix A.......................................................   259
    Kevin Morris Testimony.......................................   260
        Waiting to Vote..........................................   260
Appendix B.......................................................   295
    Kevin Morris Testimony.......................................   296
        Did Consolidating Polling Places in Milwaukee Depress 
          Turnout................................................   296
        Voting in a Pandemic: COVID-19 and Primary Turnout in 
          Milwaukee, Wisconsin...................................   300
Appendix C.......................................................   317
    Kevin Morris Testimony.......................................   318
        Purges: A Growing Threat to the Right to Vote............   318
        Florida, Georgia, North Carolina Still Purging Voters at 
          High Rates.............................................   352
        Purge Rates Remain High, Analysis Finds..................   356
Appendix D.......................................................   363
    Mimi Marziani Testimony, May 3, 2019.........................   364
Appendix E.......................................................   375
    Mimi Marziani Testimony, May 13, 2020........................   376
Appendix F.......................................................   391
    Mimi Marziani Testimony, September 9, 2020...................   392
Additional Material..............................................   413
    Democracy Diverted: Polling Place Closures and the Right to 
      Vote, The Leadership Conference Education Fund, 2019.......   414
    We Vote, We Count: The Need for Congressional Action to 
      Secure the Right to Vote for All Citizens, The Advancement 
      Project, 2019..............................................   496
    Are All Precincts Created Equal: The Prevalence of Low-
      Quality Precincts in Low-Income and Minority Communities, 
      Matt A. Bareto et al., 2008................................   581
    Waiting in Line to Vote, Charles Stewart III and Stephen 
      Ansolabehere, 2013.........................................
    Race, Party, and the Consequences of Restricting Early Voting 
      in Florida in the 2012 General Election, Michael C. Herron 
      and Daniel A. Smith, 2014..................................
    Waiting to Vote, Charles Stewart III and Stephen 
      Ansolabehere, 2015.........................................   596
    Race, Shelby County, and the Voter Information Verification 
      Act in North Carolina, Michael D. Herron and Daniel A. 
      Smith, 2016................................................   603
    Precinct Resources and Voter Wait Times, Michael C. Herron 
      and Daniel A. Smith, 2016..................................   646
    The Racial Gap in Wait Times: Why Minority Precincts Are 
      Underserved by Local Election Officials, Stephen Pettigrew, 
      2017.......................................................   661
    Assessing the Efficacy of Early Voting Access on Indian 
      Reservations: Evidence from a Natural Experiment in Nevada, 
      Jean Schroedel et al., 2019................................   682
    How Polling Place Changes Reduce Turnout: Evidence from 
      Administrative Data in North Carolina, Jesse Yoder, 2019...   714
    Racial Disparities in Voting Wait Times: Evidence from 
      Smartphone Data, M. Keith Chen et al., 2020................   768
    The Downstream Consequences of Long Waits: How Lines at the 
      Precinct Depress Future Turnout, Stephen Pettigrew, 2020...   830
    Voting by Mail in a VENMO World: Assessing Rejected Absentee 
      Ballots in Georgia, Enrijeta Shino et al., 2020............   872

                                 BOOK 2

2014 EAC Election Administration and Voting Survey Comprehensive 
  Report, submission.............................................   901
2016 Survey of the Performance of American Elections Final 
  Report, Charles Stewart III, Massachusetts Institute of 
  Technology, submission.........................................  1209
September 22, 2021 Letter to PA Sec. Boockvar and Mr. Jonathan 
  Marks re election security and administration issues, 
  submission.....................................................  1683
September 22, 2020 Letter to NY State Board of Elections Chair 
  Kosinski and CO Chair Douglas Kellner re election security and 
  administration issues, submission..............................  1686
Notice of Complaint--HAVA/CARES Act Funds, Letter to Hon. Alex 
  Padilla, CA Secretary of State, U.S. Election Assistance 
  Commission, submission.........................................  1690
September 22, 2020 Ranking Member Davis Letter to NJ Secretary of 
  State Tahesha Way, submission..................................  1693
SKDK OLS-DGS Approved, SKD Knickerbocker LLC, submission.........  1696
February 19, 2021 Letter to IG Layfield re $35 million GOTV 
  contract from CA Secretary of State to SKD Knickerbocker, 
  submission.....................................................  1752
March 18, 2021 Letter to Commissioner Palmer re EAC management of 
  $825 million grants during 2020 election, submission...........  1755
August 14, 2020 Chicago Board of Election Commissioners, Letter 
  to Ranking Member Davis, submission............................  1758
May 2021, 28% of Florida ZuckBucks Lingered After the 2020 
  Election--Tainting Midterms, Public Interest Legal Foundation, 
  submission.....................................................  1760
2018 Election Administration Policy Survey, U.S. Election 
  Assistance Commission, submission..............................  1763
October 15, 2020 CA Secretary of State Alex Padilla Letter to 
  Mona Harrington re complaint alleging improper use of federal 
  funds for GOTV activities, submission..........................  1775
October 1, 2020 Letter to NC State Board of Elections Members re 
  proposed settlement with NC Alliance for Retired Americans, 
  submission.....................................................  1783
July 22, 2020 Ranking Member Rodney Davis Letter to Philadelphia 
  County Supervisor of Elections Garrett Dietz re June 2nd 
  primary election issues, submission............................  1789
July 22, 2020 NYC Board of Elections Ranking Member Rodney Davis 
  Letter to Anne Taylor re June 23rd primary, submission.........  1792
July 22, 2020 Ranking Member Rodney Davis Letter to Multnomah 
  County Director of Elections Tim Scott re May 19th primary, 
  submission.....................................................  1795
July 22, 2020 Ranking Member Rodney Davis Letter to Los Angeles 
  County Registrar Dean C. Logan re March 3rd primary election, 
  submission.....................................................  1797
July 22, 2020 Ranking Member Rodney Davis Letter to Harris County 
  Clerk Chris Hollins re March 3rd primary, submission...........  1801
July 22, 2020 Ranking Member Rodney Davis Letter to Fulton County 
  Chairperson Mary Carole Cooney re June 9th primary election, 
  submission.....................................................  1803
July 22, 2020 Ranking Member Rodney Davis Letter to DC Board of 
  Elections Chair Michael Bennett re DC June 2nd primary, 
  submission.....................................................  1806
July 22, 2020 Ranking Member Rodney Davis Letter to City of 
  Chicago Board of Election Commissioners Chair Marisel A. 
  Hernandez re March 17th primary, submission....................  1809
July 22, 2020 Ranking Member Rodney Davis Letter to Champaign 
  County Clerk Aaron Ammons re March 17th primary election, 
  submission.....................................................  1812
2016 Election Day Voter Experience Survey Highlights, U.S. Vote 
  Foundation, submission.........................................  1815


    VOTING IN AMERICA: THE POTENTIAL FOR POLLING PLACE QUALITY AND 
 RESTRICTIONS ON OPPORTUNITIES TO VOTE TO INTERFERE WITH FREE AND FAIR 
                          ACCESS TO THE BALLOT

                              ----------                              


                         FRIDAY, JUNE 11, 2021

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:00 a.m., via 
Webex, Hon. G. K. Butterfield [Chair of the Subcommittee] 
presiding.
    Present: Representatives Butterfield, Aguilar, Leger 
Fernandez, and Steil.
    Also Present: Representatives Scanlon and Davis.
    Staff Present: Jamie Fleet, Democratic Staff Director; 
Khalil Abboud, Deputy Democratic Staff Director; Brandon 
Jacobs, Legislative Clerk; David Tucker, Senior Counsel and 
Parliamentarian; Dan Taylor, General Counsel; Sean Wright, 
Senior Elections Counsel; Sarah Nasta, Elections Counsel; Peter 
Whippy, Communications Director; Natalie Young, Press 
Secretary; Tim Monahan, Minority Staff Director; Caleb Hays, 
Minority General Counsel & Deputy Staff Director; Nick Crocker, 
Minority Deputy Staff Director; Gineen Bresso, Minority Special 
Counsel; Rachel Collins, Minority Counsel; and Mike Cunnington, 
Minority Policy Advisor.
    Chairman Butterfield. The Subcommittee on Elections of the 
Committee on House Administration will now come to order.
    It is good to see all of my colleagues this morning. Thank 
you so very much for joining us. It appears that we have about 
six members on the call today and just thank all of you for 
taking the time to log on, and we will try to get through this 
as quickly as we can.
    On the Democratic side, we have, in addition to the chair, 
we have Mr. Aguilar, Ms. Leger Fernandez, Ms. Scanlon, and, of 
course, myself. On the Republican side, we have Mr. Davis--I 
understand that he may be traveling, but he should be with us--
Mr. Davis and Mr. Steil.
    So thank all of you for joining.
    As we begin, I want to very briefly note that we are 
holding this hearing in compliance with the regulations for 
remote committee proceedings pursuant to House Resolution 8. 
Generally we ask our members, our subcommittee members, and 
witnesses to keep their microphones muted when not speaking. 
And, of course, the purpose for this is to limit the background 
noise. Members will need to unmute themselves when seeking 
recognition or when recognized for their five minutes. 
Witnesses will also need to unmute themselves when recognized 
for their five minutes or when answering a question. Members 
and witnesses, please, please, keep your cameras on at all 
times even if you need to step away for just a moment. Please 
do not leave the meeting or turn your camera off. And there are 
good reasons for that, so please remember that, if you will.
    I would also like to remind members that the regulations 
governing remote proceedings require that we cannot participate 
in more than one committee proceeding at the same time. Now, I 
know it is tempting from time to time, but that is the rule. 
You cannot participate in more than one committee proceeding at 
the same time.
    And so, at this time, I am going to ask unanimous consent 
that the chair be authorized to declare a recess of the 
subcommittee at any point and that all members will have five 
legislative days in which to revise and extend their remarks 
and have any written statements be made part of the record.
    If there are no objections, I will so order it.
    Today's hearing is the fourth--it doesn't seem like it has 
been four, but this is actually the fourth in a series of 
hearings that this Subcommittee is conducting examining the 
state of voting in America.
    Today we will discuss changes in election administration 
and voting laws that reduce or consolidate or relocate polling 
locations that impact the ability of voters to access the 
ballot. We will talk about long wait times at the polls and 
restrictions on opportunities to vote, all of which--all of 
which--can disproportionately burden minority voters. We all 
saw the stories of lines so long, so long voters--let me start 
that one over. We all saw the stories of lines so long that 
voters brought chairs to wait for the opportunity to vote, or 
we saw volunteers providing food and water to people who have 
to wait in line for hours on end.
    That is terrible. No voter should have to wait hours to 
vote. I hope we can all have bipartisan agreement on that.
    Others still may be forced to travel long distances to 
reach their polling location. Many do not have the time in 
their day to do either.
    And so we have seen the stories of Republican legislatures 
all across the country who are doubling down on their strategy 
of making voting inconvenient. Some say they are interested in 
making it easier to vote and harder to cheat, but what they 
don't tell us--and what they don't tell you--is they only want 
you to vote where and when it is convenient for them.
    There is no proof that these laws are necessary and no 
analysis to ensure that they are not discriminatory. 
Unfortunately, the evidence reveals plainly the very opposite. 
They are discriminatory and intended to keep voters from the 
ballot box.
    I want to have a debate about that, but that is my opinion.
    Expanded opportunities to vote, such as early mail-in or 
curbside voting and access to drop boxes increase equal access 
to the ballot and can decrease these waiting times. We should 
provide more of these opportunities. Recent elections prove 
that if voters are given options for when and how to cast their 
ballot, participation in the electoral process will actually 
increase.
    When we increase the opportunities available to voters, it 
increases participation in our democracy. Our democracy only 
serves the people when every voter has the ability to freely 
and fairly participate.
    The Constitution, that great document that we all serve, 
the Constitution is unambiguously clear: Congress has a clear 
role in protecting this right to vote and ensuring equal, 
equitable access to the franchise.
    And so, my friends, I look forward to hearing and learning 
from today's witnesses and working with my colleagues on both 
sides of the aisle to ensure we do just that.
    Thank you for listening.
    I will now recognize the Ranking Member, Mr. Steil, for his 
opening statement.
    [The statement of Chairman Butterfield follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
       
    Mr. Steil. Thank you very much, Mr. Chairman.
    I start out nearly all of our hearings reminding folks that 
we saw historic turnouts in 2018 and 2020 elections. More 
people voted in the 2018 midterms than at any midterm election, 
and more people voted in 2020 than ever before. I say this 
because for years the rhetoric, which is getting louder, has 
been that Republicans are trying to suppress the vote. In fact, 
it has been suggested at each hearing this Subcommittee has 
held. It is Democrats' justification, I think, for H.R. 1, and 
the assertion is just not true.
    Today's hearing focuses on the effects of poll location 
closures. And, unfortunately, in 2020, we did see polling 
location closures. However, it may surprise many of my 
colleagues that these closures were done in Democratic areas 
where the elections are administered largely by, wait for it, 
Democrats. These closures occurred to push mail-in voting 
without commonsense safeguards.
    Let's review eight cities or counties where elections were 
administered by Democrats or Democratic appointees. In my home 
State of Wisconsin, the city of Milwaukee reduced polling 
locations from 180 to just 5 in the 2020 primary election.
    In Fulton County, Georgia, which includes the city of 
Atlanta, and is home to 11 percent of the State's population, 
they only opened five polling locations during their primary 
election.
    Harris County, Texas, home to one of the fastest growing 
cities in the country, Houston, voters reported waiting up to 6 
hours to vote in the primary election due to poll closures.
    L.A. County closed more than 3,500 voting locations in its 
primary, reducing the county's poll locations to just 978 for a 
county whose population is nearly double the entire State of 
Wisconsin.
    In New York City, not only were polling places reduced for 
the primary election, but some didn't open on time and 
locations were changed just hours before voters showed up to 
vote.
    Washington, D.C., went from 143 locations to just 20 for 
its primary.
    Chicago had reports of multiple polling location closures.
    Philadelphia County reduced polling locations by 77 percent 
for their June 2 primary.
    And, admittedly, the list goes on.
    And so I have to ask my colleagues and the mainstream media 
who is listening today, where was the outrage from Democrats? 
Where was the oversight hearings then?
    I think Democrats on this Committee failed to hold hearings 
or conduct proper oversight. Republicans, however, sent 
letters, oversight letters to each jurisdiction expressing 
concern and requesting answers. And I would ask unanimous 
consent to insert those letters and their responses into the 
record.
    Chairman Butterfield. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr. Steil. So, further, instead of improving voter 
confidence and addressing these issues, H.R. 1 really would do 
the opposite. We will hear from today's witnesses about how 
H.R. 1 would nationalize all elections and centralize their 
administration in Washington, D.C., under Democratic control, 
who has a history of closing polling locations and removing key 
safeguards like voter ID or list maintenance that protect our 
elections and help ensure that voters are confident in the 
process and the results.
    Last Congress, Republicans introduced legislation to help 
States ensure polling locations could remain open. The 
Emergency Assistance for Safe Elections Act, the EASE Act, 
would have provided additional funding to help States and 
localities to help poll workers disinfect equipment, for voting 
machines, purchase personal protective equipment for poll 
workers, and other items.
    The EASE Act would have also addressed an issue election 
administrators across the country struggle with, which is 
recruiting enough poll workers. The typical poll worker is 65 
years or older, which is admittedly the designated at-risk 
population for COVID. Even outside the pandemic, recruiting 
poll workers has been increasingly difficult for election 
administrators. The EASE Act would have provided funding to 
help States clean their voter registration rolls, which impact 
voter wait times. The more outdated the voter rolls, the longer 
it takes poll workers to find a voter in the system.
    There are, I think, really commonsense solutions that don't 
involve a Federal Government takeover of our election system. 
And, unfortunately, we were not able to review the bill in this 
Committee, and Speaker Pelosi never brought the bill to the 
floor for a vote. I believe there are election administration 
solutions Democrats and Republicans can work on together, and I 
am hopeful that my colleagues on the Committee will take me up 
on addressing some of them.
    I look forward to today's hearing, Mr. Chairman. And, with 
that, I yield back.
    [The statement of Mr. Steil follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. Thank you very much, Mr. Steil. Thank 
you, thank you, thank you.
    I noticed that the Ranking Member of the Full Committee is 
on the screen, my good friend, my neighbor; Congressman Rodney 
Davis from the great State of Illinois.
    Rodney, can you share a few words with us this morning?
    Mr. Davis. Thank you, Mr. Chair.
    It will be great to see you again next week. I can't wait 
until we get a chance to get back in the hearing room to do 
these hearings and bring these witnesses out in person. So I 
heard some upcoming guidance from the Office of Attending 
Physician today. I will promise you, sir, I will sit way at the 
other end of the dais if it makes you and Mr. Aguilar feel more 
comfortable. But I would love to be able be there and share 
some of those great sweet potato chips that you guys have in 
your office.
    Sir, Mr. Chair, if I could real quick ask unanimous consent 
to enter into the record a copy of our House Administration 
Minority Ballot Harvesting Report, a copy of the Election 
Assistance Commission data turnout in elections, and also the 
correspondence that we have gathered between the State of 
California and SKDKnickerbocker and the Election Assistance 
Commission on the misuse of taxpayer dollars.
    Chairman Butterfield. Without objection.
    Mr. Davis. Thanks, sir, very much.
    Hey, listen, I am really excited to listen to the witnesses 
here today. I certainly hope, Mr. Chair, coming forward as we 
move these Subcommittee hearings into the future that we might 
have a chance to invite some of the election administrators 
that we are going to talk about today. I would like to find out 
why certain areas of Georgia and Wisconsin had so many poll 
closures. I want to know what their justifications are, what 
they were. Now is our time to go back and find out these 
answers as to why so many polling locations in majority 
Democrat areas were shut down before the election. I want to 
know what was the problem. Was it a COVID-related issue? Was it 
something that is related to long term to a lack of election 
judges? What do we need to do as a committee to show some 
leadership here? And I certainly am glad we are going to hear 
from a lot of educational and research experts today, but I do 
believe in the future if we could sit down and come up with a 
good two-panel hearing of this Subcommittee for election 
administrators nationwide so that we can ask, especially those 
in the areas of Georgia and Wisconsin, where we saw disastrous 
results from polling location closures, I would love this 
Subcommittee to be able to take that on.
    And, with that, Mr. Chair, I yield back the balance of my 
time.
    Chairman Butterfield. Thank you. The gentleman yields back. 
And thank you, Mr. Davis.
    And let me just assure you, Rodney, that we are just as 
eager as you are to return to in-person hearings, but we are 
just concerned. We are concerned that not all staff and not all 
of our Members have been vaccinated. But I clearly understand 
your concerns, and we have talked about it in our Democratic 
Caucus. And please know that we will return to in-person 
hearings just as soon as we can do it safely.
    In just a moment, I will introduce our witnesses, but 
before I do so, as a reminder to our witnesses, each of you 
will be recognized for 5 minutes. There is a timer there on 
your screen. Please be sure that you can see the timer and are 
mindful of this 5-minute time limit. Your entire witness 
statements will be made part of the record, and the record will 
remain open for at least 5 days for additional materials to be 
submitted.
    And so I welcome, I welcome each of our witnesses today.
    Joining us on our first panel are Mr. Stephen Pettigrew of 
the University of Pennsylvania; Ms. Jesselyn McCurdy of the 
Leadership Conference on Civil and Human Rights; Mr. Kevin 
Morris of the Brennan Center for Justice; Ms. Mimi Marziani of 
the Texas Civil Rights Project; and Mr. Donald Palmer, who is 
the chair of the U.S. Election Assistance Commission.
    Let me first talk about Dr. Pettigrew. Dr. Pettigrew is the 
director of the data sciences of the University of 
Pennsylvania's program on opinion research and election studies 
and the deputy executive director of the Fox Leadership 
Program. Prior to joining Penn, Dr. Pettigrew received his 
Ph.D. in political science and a master's in statistics from 
Harvard University and worked at the MIT election data and 
science lab.
    Very impressive resume. Thank you for joining us.
    Ms. Jesselyn McCurdy is the interim executive vice 
president for government affairs at the Leadership Conference 
on Civil and Human Rights. Prior to joining the Leadership 
Conference, Ms. McCurdy served as deputy political director at 
the National Political Advocacy Department of the ACLU and as 
counsel for our House Judiciary Committee.
    Thank you for your work over the years.
    Kevin Morris is a quantitative researcher with the Brennan 
Center for Justice's Democracy Program focusing on voting 
rights and elections. His research focuses on the impact of 
laws and policies on access to the polls. Now, Mr. Morris has a 
bachelor's in economics from Boston College and a master's in 
urban planning from NYU's Wagner School with an emphasis on 
quantitative methods and evaluation.
    Mimi Marziani is the president of the Texas Civil Rights 
Project, where she has served since 2016. She also teaches 
election law and policy at the University of Texas School of 
Law. Before moving to Texas, our witness spent several years as 
counsel for the Democracy Program at the Brennan Center for 
Justice, where she litigated election law cases in Federal 
courts, including the United States Supreme Court.
    Finally, Donald Palmer. Mr. Palmer is a commissioner with 
the U.S. Election Assistance Commission and the Commission's 
current chair. Commissioner Palmer was confirmed by the Senate 
on 2 January of 2019. Prior to serving as Commissioner, he 
served as secretary of the Virginia State Board of Election, as 
Florida's director of elections, as a trial attorney with the 
Voting Rights Section of the Department of Justice. He served 
two decades in the United States Navy.
    And thank you, sir, for your incredible service to our 
country.
    At this time, I am going to recognize each one of our 
witnesses for 5 minutes.
    We will start with Dr. Pettigrew.
    Dr. Pettigrew, you are now recognized, sir, for five 
minutes.

STATEMENTS OF STEPHEN PETTIGREW, DIRECTOR OF DATA AND SCIENCE, 
UNIVERSITY OF PENNSYLVANIA; JESSELYN McCURDY, INTERIM EXECUTIVE 
 VP FOR GOVERNMENT AFFAIRS, LEADERSHIP CONFERENCE ON CIVIL AND 
HUMAN RIGHTS; KEVIN MORRIS, QUANTITATIVE RESEARCHER, DEMOCRACY, 
  BRENNAN CENTER FOR JUSTICE; MIMI MARZIANI, PRESIDENT, TEXAS 
 CIVIL RIGHTS PROJECT; AND DONALD PALMER, CHAIR, U.S. ELECTION 
                     ASSISTANCE COMMISSION

                 STATEMENT OF STEPHEN PETTIGREW

    Mr. Pettigrew. Thank you, Chairman Butterfield, Ranking 
Member Steil, and members of the Committee. Thanks for the 
opportunity to testify here today.
    I am Dr. Stephen Pettigrew from the University of 
Pennsylvania. I am here to talk about my research on the 
problem of long lines at polling places and the 
disproportionate impact that they have on voters of color.
    Managing the length of lines at polling places is one of 
the most crucial tasks that State and local election officials 
must handle. In 2013, the bipartisan Presidential Commission on 
Election Administration recommended that no voter should have 
to wait more than half an hour to vote.
    In the November 2020 election, however, approximately 16 
million voters waited in line longer than this 30-minute 
benchmark. About 5 million waited longer than an hour. As the 
problem of long lines has grown in recent decades, so too has 
the political science literature on the topic.
    In my testimony today, I would like to highlight three key 
findings from that research. The first finding is that non-
White voters tend to face considerably longer waits to cast 
their ballots than White voters. This racial difference is the 
consistent finding in research about long lines no matter what 
data or research methodology is used.
    In my own research, I find that, all other things equal, 
non-White voters are three times as likely as White voters to 
wait more than 60 minutes and six times as likely to wait 
more--I am sorry--three times as likely to wait longer than 30 
minutes and six times longer than 60 minutes to vote.
    Even in 2020 when average wait times were longer than any 
election with since at least 2008, this racial gap persisted. 
Roughly 17 percent of White voters waited more than 30 minutes 
compared to 23 percent of Black voters, and one out of every 20 
Black voters waited longer than an hour compared to one out of 
every 44 White voters.
    One possibility that could explain this gap is that non-
White voters are more likely to live in urban areas and White 
voters in rural areas. If the logistics of elections are just 
harder in cities, then that could account for the racial gap in 
wait times. My research finds that, although this is a piece of 
the story, the urban world divide accounts for less than half 
of the racial gap in wait times, and this leads me to the 
second conclusion from the political science literature, which 
is that the gap in wait times by race is largely driven by 
fewer resources, like poll workers or voting machines being 
allocated to predominantly non-White polling places.
    Policies like precinct closures, shortening voting hours, 
and voter ID laws can add significant impacts on wait times 
especially for non-White voters. In some ways, lines at polling 
places are similar to lines at the grocery store or traffic on 
the highway. If there is too few cashiers or lanes, then 
shoppers or vehicles get backed up. And, similarly, if a 
precinct has too few poll workers and not enough voting 
machines, then lines will develop.
    My research and that of other political scientists finds 
that the ratio of voters to poll workers or voters to machines 
tends to be more favorable in mostly White precincts.
    In addition to adding more resources to polling places, 
policymakers and election officials can influence line length 
in other ways. Opening new polling places that are well staffed 
and well resourced can decrease line length, while closing 
precincts without making dramatic changes to the unclosed ones 
can cause significantly longer waits. Increasing the hours of 
operation at polling places or the number of days of early 
voting can help mitigate long lines, while cutting hours has 
the opposite effect, causing voters to show up in larger 
clusters creating the potential for bottlenecks.
    And, lastly, increasing access to vote by mail is another 
effective way to shorten lines by decreasing the number of 
voters showing up to vote in person.
    The third key finding from research about long lines is 
that they can have negative consequences on the voter and the 
electoral system as a whole. Lines can be a big vote burden on 
those who have less flexibility in their schedule because of a 
tight work schedule or because they have to pick up their kids 
at school.
    In my research, I found that voters who experience a long 
wait are significantly less likely to turn out in subsequent 
elections, and given that 16 million voters experienced a long 
wait in 2020, my research shows that hundreds of thousands 
could be turned off from voting in future years. Even more than 
that, researchers have found that voters who experience a long 
line are less confident in the integrity of the electoral 
system as a whole. They are less likely to believe that their 
ballot will be kept secret or that their votes will be properly 
counted.
    Standing in a long line to vote is perhaps one of the most 
common ways that voter satisfaction has eroded. It is clear 
from decades of research that non-White voters are 
significantly more likely to bear the cost of long line than 
White voters. This fact is even more troubling when you 
consider that long lines decrease future turnout and erode 
voter confidence.
    Going forward it is essential that when State and local 
election officials make changes to election procedures, they 
don't put their thumb on the electoral scale by widening the 
race gap in wait times.
    I want to thank the committee for their time and for 
holding hearings on this important topic of improving the 
health of our democracy, and I look forward to any questions 
that you have.
    Thanks.
    [The statement of Mr. Pettigrew follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. Thank you, Dr. Pettigrew.
    At this time, the chair will recognize Ms. McCurdy for five 
minutes.

                 STATEMENT OF JESSELYN McCURDY

    Ms. McCurdy. Chairman Butterfield, Ranking Members Steil 
and Davis, and members of the Subcommittee, thank you for the 
opportunity to testify today.
    And thank you, Chairman Butterfield, for your leadership in 
calling this hearing.
    It is a critically important discussion as we watch an 
ongoing coordinated and calculated attack on the foundation of 
our democracy, the freedom and right to vote. Last year, across 
race, income, and ZIP Code, and in the face of a once-in-a-
century global pandemic, Americans turned out to vote in 
historic numbers. It was an awe-inspiring moment and a 
declaration of the great possibility of our Nation to live up 
to the highest ideals.
    Yet, in response, some politicians are trying to take us 
backwards by creating barriers for Black, Brown, and 
indigenous, and new Americans who want to exercise this 
fundamental right.
    The path was paved by these politicians by the U.S. Supreme 
Court in 2013 when five Justices eviscerated section 5 of the 
Voting Rights Act in the Shelby County v. Holder decision. 
Section 5, known as the heart of the Voting Rights Act, enabled 
the Federal Government to block proposed discriminatory voting 
restrictions in places with pervasive histories of 
discrimination. It also ensured that changes to voting rules 
were public, transparent, and evaluated to protect voters 
against discrimination based on race and language. It is 
imperative that Congress restore preclearance given the crisis 
our democracy is facing now.
    While these discriminatory barriers take many form, I will 
focus on just one today, the removal of the varied locations 
where ballots are cast and counted. Polling place closures and 
consolidations are a pernicious and incredibly effective tactic 
for disenfranchising voters, particularly voters of color, 
older voters, rural voters, and voters with disabilities--and 
since the Shelby decision, jurisdictions closing polls at 
alarming speeds.
    The Leadership Conference Education Fund documented the 
trend in our report ``Democracy Diverted'' when analyzing 
polling place closures in 757 counties once covered under 
section 5.
    Chairman Butterfield, I would like to enter this report 
into today's hearing record.
    Chairman Butterfield. All right. Unless there is objection, 
the report is received.
    Ms. McCurdy. Shockingly, we found 1,688 polling places were 
closed between 2012 and 2018. Overall, Texas alone closed 750 
polling places. Arizona closed 320, and Georgia closed 214. 
Louisiana, Mississippi, Alabama, and North Carolina combined 
closed over 300 polls. Many of these closures are happening in 
communities of color rather than in majority White 
neighborhoods, and in many instances officials provided no 
notice to voters that their voting precincts were closed or 
relocated. Not surprisingly, Georgia closed a higher percentage 
of polling places than any other State in 2018. In an extreme 
example, local policymakers left seven counties in the State 
with just one polling place to serve thousands of people over 
hundreds of square miles. This is patently unacceptable and 
particularly when viewed against America's persistent history 
of denying the right to vote to Black Americans.
    Before the Shelby County decision, section 5 enabled the 
Federal Government to analyze voting changes like polling place 
reductions to ensure they did not discriminate against voters 
of color. This critical protection no longer exists, and the 
consequence on voters' ability wait to cast a ballot are 
devastating. No one should be deterred from casting their 
ballot because of location, ability to take off work, access to 
transportation, or responsibilities at home.
    Disturbingly, the attacks on our freedom to vote have only 
worsened following the 2020 election. According to the Brennan 
Center for Justice, since January, at least 14 States have 
enacted 22 laws that restrict the vote and put up barriers to 
the ballot box. Overall, State lawmakers have introduced at 
least 389 antivoter bills just this year. Voters of color will 
bear the brunt of these new restrictions and the most 
significant assault on voting rights since the Jim Crow era, 
and we know that if fully functioning voting rights had been in 
place in the Federal election, it could have prevented many if 
not all of these attempts to silence the voices of voters as 
well as any antivoter bill that has proliferated over the last 
decade.
    The Leadership Conference urges Congress to pass the John 
Lewis Voting Rights Advancement Act. This historic bill will 
reverse the damage done by the Supreme Court in Shelby County 
and update the Voting Rights Act to reflect modern-day patterns 
of voting discrimination.
    Thank you very much for the opportunity to testify today.
    [The statement of Ms. McCurdy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. And thank you, Ms. McCurdy.
    At this time, the Chair will recognize Mr. Morris for five 
minutes.

                   STATEMENT OF KEVIN MORRIS

    Mr. Morris. Chairman Butterfield, Ranking Member Steil, and 
members of the Committee, thank you for the opportunity to 
testify before you today in support of the John Lewis Voting 
Rights Advancement Act.
    In the 8 years since the U.S. Supreme Court decided Shelby 
County v. Holder and suspended the 1965 Voting Rights Act's 
preclearance condition, voters of color have had to fight 
harder than White voters to exercise the rights central to the 
American project, namely, their right to participate without 
undue burden in their own self-government at the ballot box.
    Election day experiences are a major source of disparities 
in our electoral system. Racial and ethnic minorities routinely 
face longer waits than White voters. The distribution of 
electoral resources, polling place consolidation, and voter 
list maintenance all put voters of color at a disadvantage on 
election day. Federal oversight is needed.
    Over the past decade, scholars and activists have 
documented that racial and ethnic minorities wait longer to 
cast their ballots on election day. My research at the Brennan 
Center for Justice, a nonpartisan think tank, demonstrates that 
voters wait longer in places where there are fewer resources 
available. However, this cannot explain the full racial wait 
gap. In 2018, voters of color did not live in counties with 
fewer electoral resources. This complicates our understanding 
of the allocation of resources, and it means we need to focus 
on the equitable experiences on election day, that is, ending 
the racial wait gap not only on an equal distribution of 
resources. In other words, as much attention needs to be paid 
to the quality of resources as to their quantity.
    Furthermore, while voters of color in 2018 may have lived 
in better resourced regions, their population growth is 
concentrated in counties with fewer resources. Put differently, 
resource allocation patterns are on track to exacerbate, not 
mitigate, the racial wait gap in coming years.
    Nowhere do polling place resources matters more than in the 
number of poll sites available. A large body of empirical work 
has demonstrated the disenfranchising impact of polling place 
glitches.
    This was thrown into sharp relief in 2020 by the COVID-19 
pandemic when the city of Milwaukee, Wisconsin, shuttered 
nearly all of their polling places for the Presidential 
primary. Just five out of more than 180 remained open. This 
last-minute decision to close the polling places came against 
the backdrop of a surge in vote-by-mail usage. However, as my 
research demonstrates, the accessibility of vote by mail was 
not enough to offset large declines and turnout in the city. 
Rather, turnout declined by an estimated 8 percentage points or 
nearly a third. This negative effect was even larger for Black 
voters.
    Increases in voter purges in formerly covered jurisdictions 
have also led to a deterioration in polling place quality. The 
Shelby County decision led to a dramatic increase in voter 
purge rates in jurisdictions formerly covered under section 5 
of the VRA. Wrongful purges can and do disenfranchise some 
voters, but the consequences extend even to voters whose 
registrations were not canceled.
    My research shows that increased purge rates were 
associated with higher provisional ballot rates in formerly 
covered jurisdictions. Voters spend longer filling out 
provisional ballots than they do ordinary ones, which can cause 
slowdowns for entire polling places and not just the voters who 
were wrongfully purged. Given that formerly covered 
jurisdictions were covered precisely because of their histories 
of racial discrimination, the ripple effects of increased 
provisional ballots are occurring where voters were once but 
are no longer protected by section 5 of the VRA.
    It might seem that decisions about election day resources 
should be left up to the States and that Federal intervention 
is unnecessary. Unfortunately, that is not the case. As my 
research documents, mandatory minimum resource requirements set 
by individual States are routinely ignored.
    To take just one example among many, in 2018, 31 out of 
South Carolina's 46 counties, that is two-thirds of South 
Carolina's counties, had more voters per machine than allowed 
under State law. State regulation is not a sufficient bulwark 
against the underresourcing of polling places in the States. 
Federal oversight, such as that promised by the VRAA and the 
For the People Act, is needed.
    Restoring the 1965 Voting Rights Act to its full power is 
more important today than at any point in the past 8 years. So 
far in 2021, 48 States have introduced laws making it more 
difficult to vote. These have become law in 14 States so far, 
and the legislative session is not yet over. Those introduced 
and passed in States like Georgia, Florida, and Texas would 
make early and mail voting less accessible, pushing more voters 
into polling places on election day, further straining 
resources and leading to longer lines.
    In short, the preclearance condition of the VRA worked. It 
protected voters of color from discriminatory voting laws in 
parts of the country with discriminatory histories, and it can 
do so once again. Voters of color today face steeper costs in 
today's elections, costs paid in lost time and lost wages due 
to unfairly resourced polling places.
    I urge Congress to pass the John Lewis Voting Rights 
Advancement Act.
    Thank you.
    [The statement of Mr. Morris follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. Thank you, Mr. Morris.
    And, at this time, the chair recognizes Ms. Marziani. And I 
hope I am pronouncing that correctly. If not, please excuse me. 
You are now recognized for five minutes.

                   STATEMENT OF MIMI MARZIANI

    Ms. Marziani. Thank you and good morning.
    Chairman Butterfield. Good morning.
    Ms. Marziani. Thank you, Representative Butterfield.
    And to Ranking Member Steil and to the other members, I am 
Mimi Marziani. I am the president of the Texas Civil Rights 
Act, and I am very honored to be with you today.
    So I am here from Austin with a pretty urgent message. 
Since the Supreme Court's Shelby County decision, there have 
been a slew of voting law changes in Texas that have made it 
more difficult for Black and Latinex Texans to vote. Texas 
then, sadly, is a prime example of why Congress must act now to 
update and reinstate preclearance.
    I have provided numerous examples of the racially 
discriminatory voting law changes that have occurred in Texas 
to this Committee previously in January 2019, to the Committee 
of the Judiciary in May 2019, to the Select Subcommittee on the 
Coronavirus in September 2020. And in the testimony submitted 
today, I attached those prior testimonies that also focused on 
a particularly troubling trend which you have heard from my 
fellow panelists. And that is that, in Texas, we have seen far 
more polling places closed than in any other State.
    These closures have disparately impacted communities of 
color. Plus Representative Steil is right, these closures have 
occurred under Republican and Democrats, which underscores, in 
fact, the need for the type of Federal investigation and 
oversight that preclearance used to provide.
    On top of all of that, if not for brave pro-voting-rights 
lawmakers breaking quorum before our regular legislative ended 
on May 31 of this year, Texas would have a new law further 
restricting access. The fight is far from over. Texas Governor 
Greg Abbott has promised to call a special session this summer 
to try to again pass this complex omnibus law in S.B. 7.
    S.B. 7 has included provisions that, among other devices, 
would restrict early voting hours, prohibit polling places from 
offering popular drive-through voting where voters can cast a 
ballot from their car and reallocate polling places using a 
racially discriminatory formula. Even though S.B. 7's 
provisions are facially neutral, all of the evidence shows that 
S.B. 7 would, in fact, disparately impact voters of color.
    So, first, S.B. 7 would have mandated that voting take 
place no earlier than 6 a.m. and no later than 9 p.m., and this 
appears to be a direct response to extended-hour initiatives 
implemented across Texas in recent years in a variety of 
counties, and particularly in Harris County, where 24-hour 
voting locations were set up in 2020. These were aimed at 
voters who are shift workers and can't cast their voters during 
regular business hours.
    A lawyer's analysis found that extended hour voting in 
Harris County in 2020 was disproportionately used by people of 
color, even most of the people who voted early in Harris County 
were White. Moreover, S.B. 7 prohibited voting from taking 
place before 1 p.m. on Sundays, which would severely hamstring, 
if not eliminate, Souls to the Polls, which is a long-standing 
tradition in which Black faith leaders encourage churchgoers to 
cast their ballots after services.
    Plus, in 2020, health concerns about COVID and Texas' 
refusal to expand voting by mail pushed innovation by local 
officials to make in-person voting safer. I think what was 
popular, arguably, was drive-through voting in Harris County: 
which was used by approximately 127,000 voters, the major of 
whom are voters of color. And despite the immense popularity of 
that, S.B. 7 now seeks to permanently end this innovation.
    Finally, an earlier version of S.B. 7, as originally passed 
by the Texas House, included a provision that would have 
required Texas counties with 1 million or more people, which is 
all of our most racially diverse counties, to distribute 
polling places based on the share of registered voters in each 
State House district. I know that sounds complicated, but the 
effects were really clear. Polling places would be pulled away 
from communities of color. That is because these communities 
have lower registration rates, which is because of historical 
racism.
    In fact, a study by the Texas Tribune found that of the 13 
State House districts in Harris County that would lose polling 
sites as a result, all but one are majority White; And this is 
exactly the type of device that the Voting Rights Act was 
implemented to protect against.
    One last thing. So, for nearly five decades, there was 
something close to a bipartisan consensus in Congress that 
States with a long history of voting discrimination, like 
Texas, should be subject to robust Federal oversight.
    I am going to go ahead and quote Ronald Reagan when he 
authorized the Voting Rights Act in 1982. He said: The right to 
vote is the crown jewel of American liberties, and we will not 
see its luster diminished.
    Voting rights for people of color in Texas have been badly 
tarnished, but I urge all members of this Committee to act now 
to restore them.
    [The statement of Ms. Marziani follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. Thank you very much for your 
testimony.
    At this time, the chair will recognize Commissioner Palmer 
for five minutes.

                   STATEMENT OF DONALD PALMER

    Mr. Palmer. Good morning, Chairman Butterfield, Ranking 
Member Steil, members of the Subcommittee on Elections.
    I appreciate the opportunity to testify this morning 
regarding the 2020 elections and the work of the United States 
Election Assistance Commission. The EAC is a bipartisan agency 
focused on election administration and supporting election 
officials across the country. This vital mission includes 
offering guidance to improve polling place quality and 
accessibility for those who need additional assistance, 
ensuring that our voting systems can be used privately and 
independently by voters with disabilities, and that the 
procedures are in place to ensure equal access to all 
Americans.
    Now, during the 2020 elections, the EAC responded 
immediately to the COVID-19 pandemic. We worked quickly in 
partnership with Federal, State partners to help local 
officials provide for the safety of their voters. These 
officials had to quickly adapt existing procedures to provide 
increased options for mail-in absentee voting, move to 
consolidated or larger polling places, and include other 
options or innovations in voting.
    The increase in the EAC operational funding and State grant 
funding made this essential assistance possible. Many States 
utilized their CARES Act grants to enhance polling place 
access, in some States actually increasing the number of 
polling places, and to provide other options to vote during the 
pandemic: For example, adding voting centers or consolidated 
polling places, additional days and hours of early voting, 
additional recruitment and training of poll workers, and 
acquisition of additional equipment, all in an attempt to 
reduce potential congestion on election day and to keep the 
voters safe.
    On behalf of my fellow commissioners and EAC personnel, we 
appreciate your support and the attention you paid to our 
mission. And the EAC aspires to do more. As a nonregulatory 
agency, our clearinghouse function is an important part of our 
mission to improve the administration of elections. We just 
recruited a team of subject-matter experts to join the agency, 
including three leading election administrators. They have a 
combined nearly 40 years of experience. We have also 
established a new position focused solely on the accessibility 
of voting systems, polling places, and every aspect of business 
of the EAC. This subject-matter expert is devoted to election 
administration and ensuring election officials have the 
resources they need to serve the voters.
    We also are going to have a current--we are going to launch 
a new advisory board, comprised of local election officials 
from the 50 States to provide recommendations to the EAC, get 
down to the local level. Together EAC and State and local 
officials will continue to innovate and safeguard the integrity 
of our Nation's elections and instill public confidence in 
those elections.
    Today's hearing addresses polling place quality and the 
potential barriers. While we have not received all election 
survey data, a recent U.S. Vote Foundation Survey found that 89 
percent of respondents indicated they were satisfied with the 
overall 2020 experience. This represents an improvement over 
2016, at a rate of 27.6 percent. Moreover, voters who cast 
their ballots in person at a polling place reported over 92 
percent satisfaction in 2020. Now, this is in line with other 
2016 polling where 95 percent of respondents said that the 
performance of poll workers was excellent or very good. 2016 
lines were shorter than they were in 2012, with 74 percent of 
voters waiting less than 10 minutes and 18 percent waiting 
between 10 and 30 minutes. That trend continues to move in the 
right direction.
    This was a similar positive opinion of polling place 
management, where 82 percent of respondents were saying things 
were run well at the polling place and 16 percent said things 
were run okay. State and local officials deserve high praise 
for these efforts. Election officials are truly public servants 
who prioritize customer service to voters.
    This is an impressive accomplishment, particularly with the 
COVID-19 burdens and last-minute changes that the pandemic 
necessitated.
    As a former election official, I know that one size doesn't 
fit all for all voter needs. From polling place locations to 
the number of sites, local officials are responsible for 
allocating resources based on the varying needs of their 
jurisdictions and the procedures governing them. While local 
governing bodies provide the resources and budgets for 
elections, the election officials are constantly reviewing the 
polling places to meet accessibility standards, identify new 
polling places to better meet community needs, determine where 
polling places are in strategic locations, locations to 
facilitate the vote of population centers in a fair manner, and 
deciding whether locations are large enough to efficiently 
process voters. So the election officials require the ability 
to act minimally to meet the needs of a local population.
    The pandemic highlighted the importance of this 
flexibility. As election officials made quick decisions to 
identify locations that allow voters to better maintain social 
distancing, consolidate locations to account for a decrease in 
the number of poll workers, other jurisdictions developed new 
procedures for a significant shift to larger scale mail-in 
ballots to be printed, mailed, and returned.
    I want to conclude briefly by talking about the Help 
America Vote Act. The Help America Vote Act and other laws 
affirm the voting rights and election procedures that are 
essential to protecting our democracy. We take these mandates 
seriously to assist election officials, identify best practice, 
and serve voters. A critical mission includes enhancing access 
to polling places.
    While the EAC's work supporting election officials help 
ensure a positive experience, we are already looking forward to 
2022.
    Thank you, Mr. Chairman, Ranking Member, members of the 
Subcommittee. Happy to answer any questions.
    [The statement of Mr. Palmer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. And we thank you for your testimony 
as well.
    I think we will now move to move to member questions.
    The gentleman from California who will have a birthday next 
week, Mr. Aguilar, you are recognized for five minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. I appreciate that 
reminder.
    I wanted to start with----
    Chairman Butterfield. Wikipedia is pretty powerful.
    Mr. Aguilar. And occasionally correct.
    Mr. Pettigrew, in your written testimony, you talked about, 
during the 2020 elections, voters experienced long lines at 
polling sites across the country. And while the previous 
election was affected by the pandemic, your written testimony 
and your verbal testimony here today talked about long lines 
that consistently remained a chronic problem for non-White 
voters. And just to underscore and make sure I heard you 
correctly, that voters who are not White are three times as 
likely to wait longer than 30 minutes and six times as likely 
to wait more than 60 minutes to cast their ballot. So I wanted 
to make sure I got that right.
    But my first question to you is, how could a long line 
during one election discourage voters from participating in 
upcoming elections? And if you could share information from--
specifically related to the data of your research to 
demonstrate this.
    Mr. Pettigrew. Yes. Thanks for the question and happy early 
birthday to you.
    So, yes, I recently--actually this month it was finally in 
print. I published a paper on the question of how long lines 
affect future turnout. I mean, it is obvious that waiting hours 
and hours on election day or in early voting has a burden on 
the voters on that particular day, but one of the things I find 
in my research is that experiencing a long line in one election 
actually has a noticeable effect on whether or not a voter 
participates 2 or 4 years later.
    And, you know, the way that I come about that conclusion is 
by, you know, I was looking at a giant database of voters, and 
I had a good sense of data on how long the lines were in their 
neighborhoods, and I was able to essentially pair voters in a 
neighborhood with a short line against a voter in a 
neighborhood who--a voter who looked demographically and, you 
know, had a similar profile to a voter elsewhere in a place 
where lines were longer, and what we see is that the person who 
looks--you know, the two people who look similar, the one who 
is in the neighborhoods with the longer line was considerably 
less likely to turn out in subsequent elections.
    And so, when you look at 2020 where we had, I think it was 
16 million people waiting longer than the 30 minutes that was 
suggested by the Presidential Commission about 20 years ago, 
the implication is that that means hundreds of thousands of 
those people may--you know, they may not turn out in 2022, for 
example.
    Mr. Aguilar. What opportunities could alleviate long wait 
times at polling sites and ensure that voters have access to 
the voting box?
    Mr. Pettigrew. Yes. I think there is--yes, I kind of think 
if I could wave a magic wand and try and solve this problem, I 
think there is three main things that I would want to do and 
want to see.
    The first one is more access to mail voting. We saw--you 
know, turnout was very high in 2020 largely because of mail 
balloting, and so having more access to that just means there 
is fewer people showing up to vote and fewer possibilities for 
long lines to develop.
    Another one, another thing I would change would be 
increasing opportunities to vote early or just having more 
hours of polls being open. You know, ideally you would have 
polls, you know, especially during the early voting period, 
open 7 days a week for the whole day, you know, maybe into the 
night to accommodate people who have difficult work schedules.
    And then the last thing I think is just more Federal 
funding for local offices. I know--I think, you know, it was 
great to have an infusion of funding this year due to the 
pandemic, but, you know, a lot of these local offices haven't 
had a major influx of money in a long time. And so just giving 
them the resources to purchase more machines, do a better job 
of recruiting more poll workers, all of that is going to have a 
tremendous impact on how long voters wait and how satisfied 
voters are with the process.
    Mr. Aguilar. Thanks very much.
    I wanted to shift briefly to Commissioner Palmer. Thanks 
for your service with the EAC and to our country.
    One of the troubling trends that we saw in the 2020 
election was election officials, including EAC Commissioners, 
were subject to threats for their safety. Are you concerned 
that threats will discourage elections officials, staff, and 
poll workers from working future elections and potentially 
impact voter access?
    Mr. Palmer. Instinctively I am concerned, but I do think 
that most election officials, State and local, really have a 
dedication to their duties, and the dedication to the voters 
and to the process outweighs their fear of, you know, threats 
to them on a personal level.
    We have been talking about this as a community, and one of 
the ways that we intend to address it is to do better training 
of what the options are dealing with local law enforcement and 
Federal resources and when it comes to how to take care of 
ourselves and to our people and to our election offices and 
just reassure our poll workers and election staff that we care 
about them and that there are procedures in place like other 
communities that might receive threats.
    So I am concerned, but, again, I know the people really 
care about their job and about their commitment to the American 
voter, and they will continue to do their duties.
    Mr. Aguilar. I appreciate it.
    Sorry, Mr. Chairman. I yield back.
    Chairman Butterfield. That is fine. Thank you.
    At this time, the chair recognizes the Ranking Member of 
the Subcommittee for 5 minutes.
    Mr. Steil. Thank you very much, Mr. Chairman.
    Mr. Morris, you studied the spring 2020 primary election in 
Milwaukee? Correct?
    Mr. Morris. Yes, that is correct.
    Mr. Steil. And in the city of Milwaukee, polling locations 
were reduced from 180 locations to five? Correct?
    Mr. Morris. Yes, that is correct.
    Mr. Steil. And the city of Milwaukee is a little more than 
one-third African American? Correct?
    Mr. Morris. I don't have that number right in front of me, 
but that sounds about right.
    Mr. Steil. Yes, a little over. I think it is closer to 38, 
but we will call it a little over a third for sake of ease of 
conversation.
    And in contrast, the city of Madison, located about 70 
miles to the west, 66 of 92 polling locations remained open, 
also a Democratically controlled city and less--but also less 
than 10 percent African American.
    In your analysis, Milwaukee turnout was reduced by what 
percentage directly attributed to the consolidation of polling 
locations?
    Mr. Morris. We estimate that it was about 9 percentage 
points, between 8 and 9 percentage points.
    Mr. Steil. And would that impact be even more significant 
for Black residents in Milwaukee?
    Mr. Morris. Thank you for the question.
    Yes, we found that it was slightly--the negative turnout 
effect was slightly larger for Black Milwaukee residents.
    Mr. Steil. I appreciate you looking into this.
    I hope the Committee takes the opportunity to investigate 
this decision by a Democratically appointed election official 
in the city of Milwaukee, when one of the key elections in that 
spring primary election was a White incumbent Democratic male 
mayor running against an African-American woman.
    As I said in my opening statement, I think it would 
surprise a lot of my colleagues that many of these closures 
were mandated by Democrats and Democratic appointees. And so, 
Mr. Morris, I appreciate you reviewing the Milwaukee primary 
election, your review and insight into that.
    Let me switch gears over to you, Mr. Palmer, if I can. As 
part of the clearinghouse function, the EAC has engaged with 
State and local election officials to assist with election 
contingency planning. As we saw last year, election officials 
across the country were tested at the highest levels as a 
result of the COVID-19 pandemic and had to make emergency 
changes to their processes and procedures for administering 
both the primary and general election to ensure that voters 
could vote safely and securely.
    My colleagues on the other side of the aisle are seeking to 
nationalize our country's election by implementing new unfunded 
Federal mandates that would impact election officials' ability 
to administer Federal elections.
    Are there mandates that could limit an election official's 
ability in responding in an emergency? Can you comment on that?
    Mr. Palmer. Well, the EAC isn't involved in that process. 
As a former lawyer at the Department of Justice, there used to 
be a process in place where which every change at the local 
level, county, township, locality would be submitted, and there 
was a process for emergency procedures. But this was a unique 
year with a lot of major strategic changes and minor changes at 
the local level just to make sure that the process was safe. 
And so, as you can see, there were a lot of procedures that 
were made at the local level to get through the 2020 election.
    Mr. Steil. But if those changes--say, we are outside the 
emergency act, right, so there is an exclusion there you are 
identifying. If these were all being reviewed by the Department 
of Justice, what would have played out as people were trying to 
make adjustments to make sure that people could vote safely and 
securely during a very unique year?
    Mr. Palmer. Well, there is a number of--just based on my 
experience, there is a number of analysts that are within the 
Department of Justice. Those requests would have to be 
submitted, and there would be a number of weeks or months for 
the Department of Justice to review those. Each locality would 
have to submit those changes to the Department voting section 
for preclearance.
    Mr. Steil. So it would have significantly altered the 
ability of local election officials to carry out elections 
during the pandemic if those changes were trying to be made?
    Mr. Palmer. It would have definitely slowed down the 
process.
    Mr. Steil. I appreciate your feedback on that, Mr. Palmer.
    And, Mr. Chairman, I now yield back.
    Chairman Butterfield. The gentleman yields back. Thank you, 
Ranking Member.
    At this time, the chair will recognize the gentlelady from 
New Mexico, my friend Ms. Leger Fernandez.
    Ms. Leger Fernandez. Good morning. And thank you so much, 
Chairman, for holding this hearing to examine how long lines, 
limited polls, and restricted voting alternatives negatively 
impact Americans' ability to vote.
    I agree with Ronald Reagan that elections are indeed the 
crown jewel of our democracy. So, conversely, restricting our 
citizens' right to vote is simply un-American.
    Dr. Pettigrew, you noted that long lines at polling places 
are due to systemic factors and, as recounted by Representative 
Aguilar, that wait times are substantially longer for non-White 
voters than White voters.
    Do you agree with the recommendation that 30 minutes is a 
reasonable time to set as the goal for wait time at all polling 
places? And is that an amount of time that you have seen in 
White higher income precincts?
    Mr. Pettigrew. Yes. And so that recommendation came out of 
the 2013 Presidential Commission on Election Administration, 
which, you know, they did extensive study of this specific 
question of how long is reasonable, and that is what they came 
to. And so that is what I have used in my research and other 
political scientists have used, and it seems like a pretty good 
standard.
    In terms of your other question about income and its 
interplay with line length, there is a relationship there. It 
is definitely not as stark as the sort of relationship between 
race and voting, but it does seem that voters--let me make sure 
I get this right, that voters who live in higher income areas 
tend to have shorter lines than voters in lower income areas. 
But, again, you know, that relationship isn't nearly as strong 
as the race relationship. And, in fact, in some of my research, 
in evaluating the relationship with race, I was taking into 
account things like income, and the effect of race was still 
quite large.
    Ms. Leger Fernandez. Thank you.
    Do you think that disparate wait times where we have this 
disparate wait times primarily on the fact of race, as you 
noticed, should be a factor, could be a factor to trigger 
preclearance under a revised Voting Rights Act?
    Mr. Pettigrew. That is a good question. Obviously, I 
haven't given a ton of thought to it, but it does seem like a 
reasonable--it does seem like a reasonable thing to have as a 
piece of the puzzle, especially given that, you know, as I 
talked about in my written testimony, what we find is that long 
lines tend to be a chronic problem in certain areas. It is not 
as if, you know, we have long lines popping up randomly across 
the country. And as an example, I talk about in my written 
testimony about how, you know, South Carolina is a State that 
over the last, I think since about 2008, they have consistently 
been one of the four or five States with the longest lines, and 
Vermont is the State on the other end of the spectrum where 
they are one of the States who have the shortest lines.
    And so the fact that lines are a chronic problem suggests 
that there is some sort of systematic problem going on there. 
And, yes, perhaps, you know, using that as a measure of, you 
know, where preclearance needs to happen, it seems reasonable 
to me, yes.
    Ms. Leger Fernandez. Thank you.
    Mr. Morris, you testified that voters of color have to 
fight harder to vote than White voters. How does this statement 
address the claims made at the beginning of this hearing that 
the higher turnout in 2020 demonstrates that we don't have a 
voting access that needs fixing? And what is your response to 
these claims?
    Mr. Morris. Thank you for that question.
    I think it is important to recognize that it is a wonderful 
thing that we saw as high a turnout in the last year's 
elections as we did, but we still didn't have 100 percent 
turnout. There are still eligible citizens who did not 
participate, and I would imagine that some of those are 
individuals who the costs were too high to participate or the 
information was not clear enough or they had to travel too far 
to get to their polling place.
    And so, I guess, my feeling is that high turnout doesn't 
necessarily mean that there are no problems anymore, and we 
know there is a growing literature in the political science 
world showing that some of these regressive voting laws do 
disproportionately impact voters of color. And so, you know, 
factors that increase turnout for everybody but might increase 
turnout more for White voters can still lead to discrepancies 
in the electorate.
    Ms. Leger Fernandez. Thank you.
    I did want to ask Ms. McCurdy regarding the 3.5 years to 
ban North Carolina's law for the--that she had in her written 
testimony that claimed it was the most restrictive voting law 
in North Carolina seen since the era of Jim Crow and what that 
told us about the need to reinstate section 5, but I see my 
time has expired, so perhaps that could be a written question 
that she responds to in writing.
    And I yield back, Mr. Chair.
    Chairman Butterfield. And I thank the gentlelady. Thank you 
very much.
    At this time, the chair recognizes the Ranking Member of 
the full Committee, my friend, Mr. Davis.
    Mr. Davis. Well, thank you. And thank you to my colleagues.
    I will save the Committee on being able to watch my happy 
birthday song to Mr. Aguilar. I will just sing it to you in 
person next week, Pete, if that is all right.
    Hey, Mr. Morris, I am glad I followed you. I am glad to 
understand that you feel as though that people may not have 
been able to go vote, but you don't have the statistics to back 
a lot of that up. I certainly hoped we would get some of the 
experts at this hearing to do an analysis of why we didn't get 
to 100 percent voter turnout.
    Is that something, Mr. Morris, that you are suggesting, 
that we should have compulsory voting in the United States?
    Mr. Morris. I am not suggesting that. I more was making the 
point that there is still room for us to do better. I 
appreciate the question, but----
    Mr. Davis. There is a lot of room. There is a lot of room 
for us to do better. And, frankly, Mr. Morris, I don't think we 
get enough credit as the United States for what we did right 
the last two election cycles. How about you?
    Mr. Morris. I think that it is a wonderful thing that we 
saw turnout as high as we did for the last two Federal 
elections, absolutely.
    Mr. Davis. And especially in the midst of a pandemic, when 
we had local election officials trying to use the limited 
resources they had to give everybody access, and that is what 
is amazing.
    I mean, we know what the end game of the Subcommittee 
hearing process is going to be. We are going to call for 
covered jurisdictions for every single jurisdiction in America. 
I certainly would be interested in whether or not this 
Subcommittee will put out a report that would advocate for 
compulsory voting, as we see in other countries.
    But I appreciate your optimism on what happened in 2018 and 
2020, and I appreciate your expression of your opinion and 
feelings as to what we can do to make it better, and certainly 
hope we can get some statistical analysis in the future to see 
what we can do to drive those last vestiges of folks out.
    And what really stopped them from going to vote is, you 
know--I mean, I feel too that many of them may just not wanted 
to go vote. Maybe they didn't like the two candidates running. 
Who knows? That is what is great about America; it is their 
choice.
    Hey, Mr. Palmer, glad to have you back, sir, as the chair 
of the EAC and also as a former elections administrator. What 
are some of the practical considerations that election 
officials must consider right now in polling place management?
    Mr. Palmer. Well, polling place management, I mean, when 
you talk about trying to reduce lines, I worked at the 
Bipartisan Policy Center on this, and I have really come to the 
conclusion that it is about an investment in technology, it is 
about more accurate voter rolls to make sure that we are 
allocating the voting equipment properly, that election 
officials at the local level have that information, and the 
local governing bodies have that information about where voters 
are, how many registered voters per precinct. That is one 
solution.
    I also think that--I am always a believer in more training 
and transparency. And I think that if we have the resources and 
the time, I think localities need to invest in better training 
of their poll workers and being able to understand that other 
voters have--may have needs in language assistance or with 
disabilities, and so they are prepared for any event that takes 
place.
    But like I said in my testimony, some of the statistics are 
really good when it comes to the opinion of voters for local 
election officials, that they are actually serving them, and 
that is very encouraging, from my perspective.
    Mr. Davis. Do you think, Mr. Palmer, that when you look 
at--when you look at the States--a State's failure to conduct 
list maintenance as required under the National Voter 
Registration Act, do you think that could have an impact on 
long lines at polling places?
    Mr. Palmer. Yeah, it absolutely does. The Presidential 
Commission on Election Administration a number of years ago, 
you know, it identified that when there is individuals that are 
no longer living in the jurisdiction, it really does provide a 
misallocation of resources. And so you may have two polling 
places in an area where a lot of the people may have left 
already or you have an increase in voters in one other area of 
the county. If your register rolls are inaccurate, it is very 
possible that you may not be as prepared as you think you are 
to efficiently handle voters that come to the polling place.
    And so there is always going to be lines in a lot of these 
high-turnout elections. Election officials want to make sure 
they have the most accurate data to efficiently process them, 
to make sure that there is enough equipment to process them 
through the voting process so the next voter in line can vote 
in a timely manner.
    Mr. Davis. Right, right. I know I am running out of time. 
One last question. Has the EAC conducted any studies on polling 
location wait times, and will election administrators ever be 
able to get rid of wait times for voting?
    Mr. Palmer. I don't have a precise answer to that question. 
I know we did some work with the Bipartisan Policy Center on 
that, and I did a lot of work personally on identifying that. 
And so there has been a lot of people, including members of the 
panel, that have looked at this issue. And my general comment 
would be that it has really improved over the years. Over every 
election, there has been an improvement in that process going 
back all the way back to 2012.
    Once we start targeting the issue using data, election 
officials have been sort of oriented to the problem, how to 
resolve the problem, and there has been a response to it. So, 
to me, it is one of those examples where there was a problem, 
we really put some of the best minds together to identify what 
sort of resources would help local election officials solve the 
issue, and we generally are improving in that area.
    Mr. Davis. Great. I have no more time.
    I yield back, Mr. Chair.
    Chairman Butterfield. Thank you, Mr. Davis.
    At this time, the chair will recognize the gentlelady from 
the Commonwealth of Pennsylvania, my friend, Mary Gay Scanlon. 
Take it away, please.
    Ms. Scanlon. Thank you very much, Mr. Chairman, and thank 
you for convening this next in our series of hearings on voting 
rights.
    I would like to direct my questions to Dr. Pettigrew from--
also from the Commonwealth of Pennsylvania, and my alma mater, 
the University of Pennsylvania.
    You know, Pennsylvania, in the last election cycle, had the 
interesting experience of having, for the first time, universal 
mail-in ballots available. Our Republican legislature had 
passed, also with support from Democrats, a law in October 
2019, prepandemic, had passed a law that, for the first time, 
allowed no-excuses mail-in voting, and millions of 
Pennsylvanians took advantage of that during the pandemic.
    Now, obviously that created some issues, because we hadn't 
had that access before and many of our counties were not quite 
prepared for that. But they performed--as Mr. Davis suggested--
they performed admirably and with great integrity in meeting 
the challenges of the day.
    Can you speak about how having access to early and no-
excuses mail-in voting can help address issues of lines at 
polling places?
    Mr. Pettigrew. Yeah, certainly. So--so yes. So as you 
noted, we had--you know, Pennsylvania was one of many States 
that provided voters with more opportunities to vote by mail.
    What is interesting about 2020 is that, you know, we had a 
turnout that was higher than we have ever had before, but the 
number of people who voted in person nationwide was actually a 
lot smaller than it had been in any election since, I think, at 
least 2008. That was as far back as I looked.
    We had about--I think about 15 or 20 million people--
fewer--15 or 20 fewer people voting in person in 2020 than in 
2016, and a lot of that is attributable to mail voting. And 
what a lot of the research shows on this point is that--is 
that, you know, increasing access to mail voting will have a 
positive impact on lines because it just means there is fewer 
people showing up on election day or during the early period. 
And, similarly, having more opportunities to vote in person 
during the early voting period, it also has a good impact on 
lines.
    Now, obviously, 2020, what we saw--so, as was noted by 
others, you know, we have had--there has been progress made on 
this issue of lines. Now, 2020 was--was a year where the lines 
actually were longer. A lot of the data we have suggests that 
lines were longer than they had been in the last 10 or 15 
years, and I think a lot of that is probably attributable to 
things related to the pandemic in particular.
    But, yeah, early voting--or more early voting, more mail 
voting, those are--those are great ways to limit capacity--
limit the number of people showing up and limit the possibility 
for bottlenecks to create long lines and bad experiences for 
voters.
    Ms. Scanlon. Thank you. Yes. And I know just, you know, 
having for years, you know, been working a full-time job and 
having kids to get to soccer games and everything on every end 
of the day, it can be a struggle for folks to get to the 
polling place during the hours that are available. So just from 
a practical standpoint, it is wonderful to have the option to 
vote when convenient.
    And I know--you mentioned research on this. From speaking 
with folks who run elections in States that have had mail-in 
voting for some time--Colorado, Washington--they talk about the 
fact that it increases participation. Isn't that right?
    Mr. Pettigrew. Yeah. There is some research on that that 
suggests that--that it can have a positive impact on turnout.
    Ms. Scanlon. Right. And I would second what you said about, 
you know, some of the lines we saw in 2020. We did see that 
issue as well, having lines at polling places. But in part it 
was because so many of our polling places, at least in 
Pennsylvania, are often staffed by seniors, and of course the 
pandemic had a disproportionately harsh effect on seniors, and 
many of them chose not to volunteer this year because of 
concerns for their health. So that created staffing shortages, 
which we also had to deal with.
    But, overall, it appears that we have the know-how, we have 
the means to move forward to make it easier for people to vote 
safely and vote in our systems that have, you know, integrity. 
So thank you for the work that has gone into the research on 
this panel to show that we can do this.
    And, with that, I would yield back.
    Chairman Butterfield. Thank you, Ms. Scanlon. The 
gentlelady yields back.
    At this time, the chair will recognize himself for five 
minutes.
    Let me begin with you, Ms. McCurdy. Thank you again for 
your testimony. Thank you for all the work that you do.
    Ms. McCurdy, you noted in your testimony that since the 
Shelby County case back on June 25, 2013, a day that we shall 
never forget, polling places have been significantly reduced in 
formerly covered jurisdictions. What has been the impact of 
these closures on the voting experience of African-American 
voters, Hispanic voters, Asian-American voters, and any other 
racial minorities? What has been the impact?
    Ms. McCurdy. I mean, I think you have heard some of the 
evidence of the impact in some of the testimony today: long 
lines, confusion about polling places, being--you know, 
standing in--or being in a situation where you are not able to 
vote because you don't know the information about early voting 
or voting hours, consolidation of polls. You go to the wrong 
poll, you find out that you are at--that you--that the 
consolidated poll is too far away for you to make it before the 
voting--the voting polls close. And so--and that 
disenfranchises many people.
    And to the question that has been asked about long lines 
and how that discourages people in the next election, when you 
stand in a long line in 2020 to vote, and then you have to plan 
your voting process for 2022, you take that in account and you 
ask yourself whether or not you will have time to stand in the 
long line that you assume that you will have to in 2022 when 
you planning your vote--yourself to vote. And oftentimes, that 
discourages people from voting, when they think back on their 
experience----
    Chairman Butterfield. Thank you.
    Ms. McCurdy [continuing]. In the previous election.
    Chairman Butterfield. Thank you for that.
    You know, over the next few weeks, we are going to be doing 
some legislating in this space. We have already passed H.R. 1, 
the For the People Act, in the House of Representatives, and we 
are waiting for action in the Senate on that. But over the next 
few weeks, we hope to be introducing H.R. 4.
    What reforms should Congress undertake to combat 
disenfranchising effects on polling places? That is something 
that you are concerned about, we are concerned about. What can 
we do to combat disenfranchising effects on polling places?
    Ms. McCurdy. Well, I think that most----
    Chairman Butterfield. I think I lost my video. Were you 
able to hear the question?
    Ms. McCurdy. Yes.
    Chairman Butterfield. Yes. Thank you.
    Ms. McCurdy. Yes. So, I mean, I think the most important 
thing is to--is to pass the John Lewis Voting Rights 
Advancement Act, and that will create a new--new formulas for 
areas who are--have historically--they were historically 
discrimination, in particular for Black, Brown, and indigenous 
people. And that--so the Department of Justice can take a look 
at any of these voting changes before they become--before they 
are effective and make sure they do not have a racial impact. 
That is the most important thing.
    What we are seeing, since the Shelby County decision, is 
there is no analysis around the racial impact that these voting 
changes will have, and they are also not transparent, and there 
is not notice that are given to voters when there are changes, 
and that is where you see the confusion come in.
    Chairman Butterfield. And let me thank you for mentioning 
our intent to pass the John Lewis Voting Rights Advancement 
Act, and we certainly plan to do that. But the purpose of these 
hearings--and we are going to have 16 hearings. This Committee 
is having--this Subcommittee is having six hearings. I think 
the House Judiciary Committee is having six or seven, and the 
Senate Judiciary Committee will be doing the same. But we are 
going to have these 16 hearings, because we want to build a 
very significant legislative record that will be persuasive to 
the Supreme Court if this were ever challenged.
    Let me conclude by talking to Ms. Marziani. In your 
testimony, you make note of the fact that your State previously 
had to seek preclearance before changing any voting law or 
policy and that the State is no longer--must demonstrate that 
the proposed change would not negatively impact the 
participation of people of color.
    How has the lack of any required impact analysis negatively 
impacted your voters?
    Ms. Marziani. I mean, in myriad of ways. And, again, I have 
submitted extensive evidence in my written remarks of the 
voting law changes, which sadly have been numerous.
    Just on polling place closures alone, we have heard that 
Texas closed more than any other State in recent years. The 
Texas Civil Rights Project did an analysis of county compliance 
with State election law, and actually found that in 2018, Texas 
was short as many as 270 polling places across the whole State 
that impacted more than 4 million people. And the Blacks were--
the reduction of polling places was particularly impactful in 
cities like Waco, Texas, that have large Black populations.
    So, you know, we see it, honestly, in almost everywhere you 
look at voting in Texas. And as I said, unfortunately, 
lawmakers seem poised to pass yet another law this summer 
without any sort of impact on the racial disparities that it 
threatens to have.
    Chairman Butterfield. Thank you. The gentleman's time has 
expired. Thank you. Thank you so very much.
    Let me thank all of the witnesses for your testimony. It 
has been very insightful, and we thank you very much. You are 
helping us to build a legislative record that will be very, 
very valuable as we write the John Lewis Voting Rights 
Advancement Act. Thank you very, very much.
    In just a moment, we are going to be moving to our second 
panel. I am going to take a 2-minute break.
    [Recess.]
    Chairman Butterfield. All right. The Subcommittee is now 
back in session.
    Thank you for your patience, and thank you again to our 
first panel.
    Joining us today on our second panel are Michael Herron of 
Dartmouth University; Gilda Daniels of Advancement Project; 
Danielle Lang of Campaign Legal Center; Isabel Longoria--I 
cannot pronounce it. Help me, staff--Longoria--thank you--the 
elections administrator of Harris County, Texas; and Ashlee 
Titus of the Lawyers Democracy Fund. Thank you for joining us 
today.
    Next, we have Dr. Michael Herron. Dr. Herron is the William 
Clinton Story Remsen 1943 professor of government at the 
legendary Dartmouth University. His areas of expertise include 
election administration and applied statistical methods, and 
his research has analyzed the impact of a variety of election 
administration practices on turnout in minority voters. Dr. 
Herron holds his degree, his Ph.D. degree, in political science 
from Stanford University.
    Next is Gilda Daniels. Ms. Daniels is the director of 
litigation at the Advancement Project, and an associate 
professor at the University of Baltimore School of Law. She is 
a nationally recognized voting rights and election law expert, 
served as a deputy chief in the Voting Section of the 
Department of Justice's Civil Rights Division under President 
Clinton and President Bush.
    Next is Danielle Lang. Danielle is the director of the 
Voting Rights program at the Campaign Legal Center, where she 
litigates a wide range of voting rights and redistricting 
matters before Federal courts, including our Supreme Court. Ms. 
Lang also has an active amicus brief before the Supreme Court 
and other Federal courts as she is an adjunct professor at 
Georgetown Law, where she teaches an election law practicum.
    Isabel Longoria. Thank you. Thank God for staff. Ms. 
Longoria is the elections administrator for Harris County, 
Texas. She is the first person to serve in the newly created 
office appointed by the County Commissioners Court. During the 
2020 election, she worked alongside Harris County Clerk Chris 
Hollins at the County Elections Office helping implement many 
of the successful and innovative voting policies in Harris 
County that they used during the election of 2020.
    Finally, Ashlee, Titus, Ashlee is a board member and the 
corporate secretary of the Lawyers Democracy Fund. She is a 
partner at the law firm of Bell, McAndrews & Hiltachk, which 
she joined in 2004, and she maintains a nationwide law 
practice, advising clients on compliance with complex campaign 
finance and advertising, lobbying, and nonprofit tax exempt 
statutes and regulations.
    Thank you to the witnesses.
    And now I will recognize each witness. I will begin with 
Dr. Herron. You are now recognized for five minutes.

   STATEMENTS OF DR. MICHAEL C. HERRON, PROFESSOR, DARTMOUTH 
    UNIVERSITY; MS. GILDA DANIELS, DIRECTOR OF LITIGATION, 
   ADVANCEMENT PROJECT; MS. DANIELLE LANG, DIRECTOR, VOTING 
 RIGHTS, CAMPAIGN LEGAL CENTER; MS. ISABEL LONGORIA, ELECTIONS 
  ADMINISTRATOR, HARRIS COUNTY, TEXAS; AND MS. ASHLEE TITUS, 
  BOARD MEMBER AND CORPORATE SECRETARY, LAWYERS DEMOCRACY FUND

                 STATEMENT OF MICHAEL C. HERRON

    Mr. Herron. Thank you, Representative Butterfield and 
Representative Steil, for this opportunity to speak to the 
Committee. I appreciate this.
    My work as an academic is in the field of what is called 
election administration. We obviously heard a lot about that in 
the first panel. This is a field in political science. It dates 
roughly to 2000. That is--in the Presidential election, it was 
complicated, disputed then. That was the origin of a lot of 
interest in political science and the sort of questions that we 
are engaging in discussion today. My own research reflects that 
as well.
    It is a nonpartisan field. People interested in election 
administration study how it is that voters cast their ballots, 
not why some are Democrats or Republicans. I just want to 
emphasize that so it is clear that this is really a scientific 
field trying to understand how a system works.
    A key concept in the field of election administration is 
what is called the cost of voting. This refers to a cost--not 
necessarily a financial cost--that individuals must pay in 
order to participate in democracy.
    So one cost is time. It is called a time tax. People 
waiting in line is a cost of voting. Gathering documents, 
traveling to vote, possibly determining where to vote, these 
are all activities that incur costs, and so it is a generic 
part of a cost of voting for a voter.
    One question that people in election administration address 
is: Is the cost of voting roughly the same for all Americans? 
This is a question about equal treatment. It is different than 
the question of is the cost of voting low. It is the question: 
Are all voters treated the same in this matter? So I will 
return to that briefly at the end of my presentation.
    The cost of voting, I will organize my thoughts around 
this. There have been efforts within the past several decades 
in the United States to lower the cost of voting for Americans. 
These are--travel under the name of convenience measures or 
convenience voting. Two of them that are very common or 
prominent now are early voting and voting by mail.
    Early voting is voting in person prior to election day. And 
the research on this study has two consistent findings. One is 
that minority voters are disproportionately heavy users of 
early voting. My own work shows this. We already heard about 
souls to the polls. My own work sort of shows the effective 
Sunday early voting for minority voters, in particular, African 
Americans. So we see that regularly across the country.
    The second finding in the literature on early voting is 
that more of it leads to more voting. The effects are not 
enormous, but they are there nonetheless. And when I say more 
of it, I am referring to days and times. States have discretion 
over where--how much early voting they want to offer. Many 
States don't offer any, but the ones that do can have--choose 
the number of days and hours. So the research that has 
primarily come out of State of Ohio shows that more early 
voting leads to voting--leads to more voting in general.
    The second convenience measure that I mentioned earlier is 
voting by mail. So we have heard, again, about this in the 
first panel. We know that there was a surge in voting--in vote 
by mail in the pandemic election. And just to draw out the 
consequences of the cost of voting, I just want to, like, give 
you some statistics in Florida that are broken down by race.
    So if we compare, say, the vote-by-mail rates in Florida in 
2016 and in 2020, what we notice is that the African-American 
voters surged heavily toward vote by mail, 89 percent increase 
from, say, 20 percent of African-American voters in Florida 
voting by mail in 2016, to 39.3 of them in 2020. That is a much 
greater increase than any other ethnic or racial group in 
Florida. And this just illustrates how certain types of groups 
take advantage of convenience voting and at different rates.
    The two other aspects of the cost of voting I just want to 
briefly touch on--we have heard about them before--one is 
lines, and Professor Pettigrew already summarized the 
literature on that, which shows that minority voters have to 
spend extra time in line compared to non-minority voters. In 
other words, their cost of voting is greater.
    And, in addition, there is literature on the effect of 
voters receiving new polling places. So this literature, which 
is concentrated in Florida, North Carolina, and California, 
shows that when individuals receive new polling places, that 
their voting rates tend to drop in a very--in a subtle way, but 
they tend to be lower in future elections, much as voters who 
wait in lines tend to have slightly lower turnout rates in 
future elections.
    We know that these features of election administration--
lines, polling places, closures, and so forth--
disproportionately affect minority voters. And that means that 
these individuals, circling back to sort of how I wanted to 
start, disproportionately have higher costs of voting than 
nonminority voters, and that just--that shows that these 
election administration practices have consequences for equal 
treatment of voters and, in particular, different racial and 
ethnic groups in the country.
    Thank you very much.
    [The statement of Mr. Herron follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. And thank you for your testimony.
    At this time, the chair recognizes Ms. Daniels for five 
minutes.

                   STATEMENT OF GILDA DANIELS

    Ms. Daniels. Thank you to Chairperson Butterfield and to 
the Committee on House Administration, Subcommittee on 
Elections, for holding today's important hearing discussing how 
voting restrictions impede the right to vote.
    I have more than two decades of expertise in the voting 
rights area. I have dedicated my career to ensuring free and 
fair access to the right to vote. It is appropriate to have 
this discussion today with the onslaught of proposed 
legislation across the country that has as its intent to make 
it harder to access the right to vote.
    My testimony today will discuss historical and 
contemporaneous challenges to the right to vote, the 
disproportionate impact on voters of color, and the need for 
Federal legislation that protects the right to vote.
    So we have been here before. We have seen these cycles of 
voter suppression, and they are throughout our history, from 
the founding, where only White male property owners were 
allowed to vote, certainly to the passage of the Civil War 
amendments where, during Reconstruction, Black men were able to 
elect persons to local, State, and Federal offices. Historians 
said that it was the first time that we witnessed a multiracial 
democracy.
    In my book, ``Uncounted: The Crisis of Voter Suppression in 
America,'' I have a subtitle that says, ``free at last, not so 
fast,'' which is certainly what they experienced, because, 
shortly thereafter, we saw literacy tests, grandfather clauses, 
poll taxes, felon disenfranchisement, and all-White primaries 
as prevalent conniving methods that prevented people of color 
from registering and accessing the right to vote. It was State 
laws throughout the South and other parts of the country that 
barred people of color from the voting--from the voting booth.
    It was the Voting Rights Act that provided Black and Brown 
people the ability to access the right to vote. The impact of 
the Voting Rights Act cannot be overstated. We must note that 
Blacks have been in this country for 400 years and have only 
been voting for 56.
    This is a testament to the power of the Voting Rights Act. 
It removed barriers such as literacy tests, as well as poll 
taxes and other disenfranchising mechanisms, and allowed Black 
and Brown people across the country, but particularly in the 
South and Southwest, to access the right to vote.
    The Act has been severely weakened and endures constant 
assault. The Shelby County v. Holder decision, which has been 
discussed earlier, sounded the alarm for legislatures to once 
again pass laws that would make access to the right to vote 
harder and impede the ability of voters of color.
    Some States responded, almost immediately, to pass 
restrictive and suppressive legislation that adversely impacted 
voters of color. Since Shelby, a weakened Voting Rights Act 
allows States to engage in the process of voter suppression 
without consequence, and that is certainly what we are seeing 
today.
    Advancement Project has chronicled the Shelby effect on 
communities of color in several publications that are included 
in my written testimony, and I would ask that they would be 
included and entered into the record today.
    We conducted people's hearings across the country in 2019, 
and allowed persons to provide firsthand accounts and tell the 
story of resilience, perseverance, and voter suppression. 
Voters of color encounter a plethora of problems in their 
attempt to exercise their right to vote. When polling places 
close or other barriers are erected to access the right to 
vote, the burden and cost to voting increases tremendously in 
communities of color.
    Since the Shelby decision, voters of color have been 
increasingly harmed by polling site closures, language access 
barriers, States' failure to comply with the ADA, financial 
barriers to voting, and lack of transparency on voting law 
changes, among many other voter suppression tactics. These 
tactics force voters to travel long distances to register or to 
cast a ballot, and certainly are inclusive of those cost of 
voting measures that Professor Herron just recently discussed.
    We saw in November 2020 certainly the--that access to early 
weekend voting was crucial, and we saw that, certainly in 
Georgia, that voters of color participated in--that voters of 
color participated in souls to the polls and weekend voting at 
a higher percentage than White voters.
    We have also--Advancement Project and other civil rights 
organizations have been engaged in certainly trying to expand 
access to the ballot in 2020 and are now challenging laws that 
seek to roll back that access in 2021.
    As a former deputy chief in the Civil Rights Division 
Voting Section, I must say that litigation is not enough. 
Litigation alone will not address the widespread assault on the 
right to vote. Without section 5, we have returned to the 
piecemeal litigation that does not address the systemic 
problem.
    Congress must pass legislation that addresses the 
disproportionate impact and burden on voters of color accessing 
the right to vote, which requires States with a proven history 
of voter suppression and discrimination to prove that any 
changes to their election laws will not disenfranchise voters. 
Congress has the power to rewrite and certainly to write an 
ending that supports access and addresses the disproportionate 
impact on voters of color--on voters of color.
    This should not be a partisan issue. It is an issue that is 
fundamental to our democracy, and I encourage Congress to 
protect our democracy and pass appropriate legislation.
    Thank you.
    [The statement of Ms. Daniels follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. Thank you very much, Ms. Daniels.
    At this time, the chair will recognize Ms. Lang for five 
minutes.

                   STATEMENT OF DANIELLE LANG

    Ms. Lang. Good afternoon, and thank you to the Committee 
for holding these hearings and the opportunity to testify on 
these important matters.
    Voting in America today does not occur solely in person on 
a single Tuesday. Americans routinely vote early in person or 
by mail. Indeed, for many Americans, including those with 
disabilities, student voters, elderly voters, voters of color, 
and low-income voters with unforgiving schedules and limited 
transportation, these voting options are a necessary lifeline.
    The early in-person voting and vote by mail options are 
wildly uneven nationwide. While some Americans enjoy a broad 
range of voting opportunities, others face increasing 
constraints on their voting options. Early in-person voting 
access, which ensures that the fundamental right to vote does 
not hinge on one's schedule on a single day, is an essential 
component of our voting system. Weekend voting days are 
particularly crucial for those who cannot afford to lose pay or 
risk job security to vote during working hours.
    And, unsurprisingly, voters of color take advantage of 
early voting options at higher rates. After all, as you have 
already heard, they are more likely to face structural barriers 
to voting on election day and longer wait times at the polls. 
Further, Black voters have rallied around Sunday voting options 
to organize highly effective souls to the polls campaigns.
    Early in-person voting is just as secure as election day 
voting, yet legislators have sought to restrict it when people 
of color use it effectively.
    In 2011, Florida eliminated a Sunday voting day after 2008 
election data showed that Black and Hispanic voters used Sunday 
voting the most and White voters used Sunday voting the least.
    In 2013, North Carolina also eliminated a Sunday voting day 
because of its disproportionate use by Black voters, leading a 
court to call it as close to a smoking gun as we are likely to 
see in modern times.
    And in 2014, Ohio eliminated its ``Golden Week,'' an 
overlapping period of early voting and voter registration, an 
option that was, once again, most popular with Black voters.
    Finally, just this session, both Georgia and Texas 
legislators pushed, albeit unsuccessfully for now, bills that 
would eliminate or severely restrict Sunday voting.
    In addition to early voting, we know that equitable vote-
by-mail practices increase voter participation. These practices 
include universal eligibility, reasonable application and 
submission procedures, and opportunities to correct technical 
errors. But, once again, Americans fare much--some Americans 
fare much better than others on this score.
    First, while most States can now give all voters the option 
to vote by mail, 16 States continue to limit access to voters 
that fit within rigid criteria, locking most residents out.
    Second, the processes for vote by mail can make the option 
elusive. In Mississippi, a vote-by-mail application has to be 
notarized. In Alabama, the ballot must be accompanied by a copy 
of a photo ID and a notary or two witness signatures. In 
Minnesota, a mail ballot requires the signature from another 
registered Minnesota voter, an obvious hurdle for out-of-State 
voters. In fact, we have seen students take to Twitter to try 
to find Minnesotans in their area to witness their ballots.
    Third, States have restricted access to secure ballot drop 
boxes. Last year, about 41 percent of mail-in voters chose to 
use drop boxes, yet Texas and Ohio both moved to limit drop 
boxes to one per county. Predictably, this hit large urban 
counties with the highest percentage of voters of color the 
hardest.
    And, fourth, in some States, election officials have 
unfettered discretion to reject a ballot if they perceive 
discrepancies in the voter's signature, leading to the 
disproportionate rejection of ballots of voters of color. And 
while most States now allow voters to fix such issues, a few 
States, notably Texas and Tennessee, do not.
    Indeed, Tennessee's mail voting rules are a model on what 
not to do. The State has rigid eligibility criteria, refuses 
access to most first-time voters, criminalizes distribution of 
applications, does not allow any drop boxes, and has no process 
to allow voters to fix discrepancies. And this year, Georgia 
and Kansas have mimicked Tennessee by prohibiting or 
restricting the mere distribution of mail ballot applications 
to voters.
    Finally, our electoral system wholly ignores the 
approximately 750,000 voters who find themselves in jails on 
election day. These voters are largely eligible to vote but de 
facto disenfranchised because jails and election officials 
alike have not set up systems to enable their participation.
    This Congress has a historic opportunity to create an 
equitable baseline of voting opportunities and stop the 
onslaught of discriminatory voting proposals.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions.
    [The statement of Ms. Lang follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Chairman Butterfield. And thank you for your testimony.
    At this time, the chair recognizes Ms. Longoria for five 
minutes. You are recognized.

                  STATEMENT OF ISABEL LONGORIA

    Ms. Longoria. Thank you, Mr. Chair.
    My name is Isabel Longoria, and I am the elections 
administrator of Harris County, home to Houston, Texas, and the 
third largest county in the United States, and one of the most 
diverse.
    During the November 2020 Presidential election, despite a 
global pandemic, Harris County had a historic 1.68 million 
voters participate in a safe, accessible, transparent, and 
equitable manner. The increased turnout was driven by 
innovations like drive-thru voting, 24-hour voting, and a 
proactive mail ballot program, methods that intentionally and 
successfully increased voting in minority communities and 
reduced wait times.
    For example, though only 38 percent of early voters in the 
Presidential election were Black, Latino, or Asian, 53 percent 
of those communities used drive-thru voting. The increased 
turnout has been sustained in multiple elections since, nearly 
doubling in our most recent local May elections.
    However, instead of promoting and expanding these voting 
initiatives, in Texas, we have been met with lawsuits and 
extremist legislation to restrict these efforts, such as Texas 
Senate bill 7, stopped only by a quorum break just a few weeks 
ago, that would have hurt voters of color in voting in Harris 
County and beyond, and here is how.
    First, forbidding election offices from sending mail ballot 
applications directly to voters. In Texas, where we have 
neither online voter registration nor online mail ballot 
applications, preventing our office from sending applications 
means that voters must bear the cost of printing and mailing 
their own applications annually, which they must also do, and 
it provides a system that disproportionately affects those 
without printers and computers, such as low-income; minority 
communities.
    Second, expanding voter ID requirements to mail ballot 
applications, creating an unnecessary hurdle for the disabled 
and senior voters most likely to use mail ballots and for which 
we already have a proven signature verification process to 
validate.
    Third, limiting voting hours by applying Jim Crow-esque 
sundown laws to voting, thereby banning 24-hour voting, which 
is often used in communities of color, and specifically 
preventing voting before 1 p.m. on Sundays, a direct attack on 
souls to the polls programs used at Black churches.
    Fourth, preventing options like drive-thru voting, which 
have become a standard practice in Harris County over the past 
four elections, that reduce wait times, increase access for 
voting, and, again, are used more often by voters of colors 
than their peers.
    Fifth, moving election day voting locations from Black, 
Latino, and Asian neighborhoods to primarily White 
neighborhoods in reaction to the fact that we increased, 
sometimes even doubling, the number of voting locations in our 
elections.
    Sixth, giving poll watchers carte blanche at voting 
locations, a force that has been used historically and today to 
purposefully intimidate voters of color.
    Seven, restricting access to voters with disabilities by 
limiting the disabilities that qualify for mail ballot voting 
and then forcing those voters to prove their disability, even 
going so far as to require extreme provision on family members 
and assistance during curbside voting, an option exclusively 
for people with disabilities.
    While we await the Governor of Texas to call a special 
legislative session to pass these blatant low-income, minority, 
and disabled community voter suppression laws, I remind this 
Committee that none of these restrictions would be possible 
under a voting rights preclearance State, which is why I as an 
elections administrator believe the need for Federal 
intervention in the conduct of elections is clear and urgent, 
because without Federal intervention, Texas leaders will 
continue rewriting the State's election code to 
disproportionately harm voters of color.
    And while everyone else gets to talk about it, I am the one 
who has to make it happen. So for those with the pithy argument 
that preclearance is just too much work for election offices 
like mine, give me a break. My duty as a civil servant is to 
jump through hoops so that the voters don't have to. No voter 
protection will ever be too onerous for me to implement when 
compared to the alternative of a weakened democracy.
    So, in summation, Harris County, Texas supports Federal 
legislation that would provide nationally guaranteed fair 
elections free from voter suppression, restoring the full 
protections of the Voting Rights Act, including a preclearance 
process and other initiatives, like online voter registration 
and universal mail ballots that help voters vote.
    And, with that, I look forward to your questions.
    [The statement of Ms. Longoria follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. Thank you for your testimony.
    At this time, the chair recognizes Ms. Titus for five 
minutes.

                   STATEMENT OF ASHLEE TITUS

    Ms. Titus. Thank you, Chairman Butterfield, Ranking Member 
Steil, and members of the Committee, for allowing me to speak 
today on the important issue of free and fair access to the 
ballot.
    It is essential to a functioning and enduring democracy and 
ensures all eligible voters can vote and be confident that 
their votes count. It means that citizens recognize the 
election as free and fair and, therefore, accept the results of 
an election, no matter which candidate wins. Safeguards that 
protect the freedom and fairness of the entire election process 
give the American people that confidence in the election 
results.
    My name is Ashlee Titus. I am an attorney at Bell, 
McAndrews & Hiltachk in Sacramento, California, specializing in 
campaign finance and election law. As part of my practice, I 
organize lawyers to observe elections in California, and have 
been an observer myself in several California counties over the 
last 17 years.
    I also serve as the secretary and on the board of directors 
of Lawyers Democracy Fund, a nonprofit, nonpartisan 
organization dedicated to promoting the role of ethics and 
legal professionalism in the electoral process. LDF's research 
focuses on the effectiveness of current election methods and, 
in particular, on voter confidence.
    As this Committee explores the intersection of ballot 
access and election security, it is vital to keep in mind the 
current crisis in voter confidence. Recent polls indicate that 
an astonishing 41 percent of voters say the November election 
was not well run, and 39 percent of people did not have 
confidence in the 2020 election results.
    It is not a lack of ballot access that prevents voters from 
participating; it is a lack of voter confidence in the voting 
system. The Knight Foundation found in early 2020 that 38 
percent of nonvoters do not believe election results accurately 
reflect the will of the people.
    Voter confidence is the real issue at hand, and the only 
way to increase confidence is to implement and maintain 
effective ballot integrity safeguards. Efforts to expand voting 
opportunities and maintain effective ballot integrity--
opportunities have unfortunately not been effective in 
increasing voter participation.
    For example, studies consistently show that early voting 
does not increase turnout and actually risks reducing turnout. 
This is because it shifts existing voters from election day to 
early voting without recruiting new voters, raises the cost and 
complication of get-out-to-vote efforts, and decreases focus on 
election day as a civic event.
    My home State of California has perhaps the most open 
ballot access laws in the country. Yet in spite of California's 
ballot access laws, which are designed to optimize 
opportunities to vote, often at the expense of the integrity of 
elections, California's voter turnout in 2020 was average 
compared to other States across the country.
    Not only do laws aimed at increasing opportunities to vote 
often fail to increase voter turnout, when they are enacted 
without proper safeguards, they risk undermining the entire 
electoral system they are trying to improve.
    Consider laws allowing for third-party ballot collection, 
also known as ballot harvesting or ballot trafficking. This is 
where someone other than the voter, often a paid political 
operative, collects and returns any number of voters' mail 
ballots. Unscrupulous harvesters can pressure voters to cast 
their ballot in a particular way and, in doing so, undermine 
the secrecy of the ballot box, a long-held essential principle 
of American elections intended to preserve the right to vote 
one's conscience.
    The sad reality is that those at most risk from coercion or 
disenfranchisement by an unscrupulous ballot harvester are the 
most vulnerable in our society. But even as States put 
meaningful limitations on ballot harvesting to ensure 
integrity, allowing 24-hour unmonitored drop boxes to receive 
voted ballots makes these limitations nothing more than words 
on paper.
    Unmonitored drop boxes create de facto unlimited ballot 
harvesting and present a genuine risk to the security of every 
voter's ballot deposited in such a box. Drop boxes need 
extensive physical security protections to prevent voting 
ballots from being destroyed or lost and systematic procedures 
implemented by elections officials to timely and securely 
retrieve ballots and deliver them to their office for 
processing.
    The solution to increasing voter participation is not to 
force California's constantly changing rules on the entire 
country. It is to build voter confidence through the enactment 
of effective election security safeguards and clear procedures 
established well in advance of an election to allow voters time 
to understand and election administrators time to implement.
    Each State should be free to enact the appropriate election 
methods that serve the diverse needs of its electorate, 
coupling procedures that make voting more accessible with 
safeguards that protect the integrity of the process. No State 
needs to look the same. One State can restrict ballot 
harvesting while providing mobile voting units to rural voters, 
and another could expand ballot harvesting--or a voting law 
providing strong chain of custody laws and monitored drop 
boxes.
    Thank you for the opportunity to present my comments and my 
perspective to the Committee.
    [The statement of Ms. Titus follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. And we thank you for your testimony 
as well.
    It is now time for member questions. And as usual, we will 
start with the gentleman from California, Mr. Aguilar.
    Five minutes.
    Mr. Aguilar. Thank you so much, Mr. Chairman.
    Ms. Longoria, from the Harris County perspective, you 
talked about drive-thru voting in the 2020 election. And 
through this new and innovative method, obviously voters can 
drop their completed ballot at designated drop-off locations 
and remain in their car. This method of voting proved to be 
safer for voters during the pandemic.
    It has been a while since my kids were in car seats, but I 
would imagine that parents with voting age--with children in 
their car, to avoid waiting in those long lines, as well proved 
helpful.
    Can you speak to the benefits of drive-thru voting outside 
of a pandemic and share data or information about who used this 
type of voting in the last election?
    Ms. Longoria. Absolutely. So right off the bat, we know 
that over 50 percent of people who used drive-thru voting were 
Black, Latino, or Asian. And to be clear, we not only used it 
in the November 2020 Presidential election, but the July and 
December elections as well, and most recently in May. And 
people love it.
    No matter what part of the city, no matter what their 
background, as you shared, being able to have your kid in the 
car while you vote means you don't have to call your kid out of 
their car seat and deal with the temper tantrum and risk that 
as you are trying to vote.
    But same with our seniors. We actually saw vans coming from 
senior centers where people appreciated being able to sit in 
their cars, right, or their vans with the community they know 
and having easy voting access, instead of having to get eight 
seniors in and out of a van. Sometimes that is cumbersome.
    We saw people with disabilities come and use it as well 
when curbside voting, which, in Texas, is mandated at every 
voting location, became sometimes too onerous because you could 
only have one voting machine there instead of the multiple that 
we were able to offer at drive-thru voting.
    So we know that beyond the pandemic, it is something that 
helps voters vote and, honestly, gets them excited about voting 
again.
    Mr. Aguilar. Thanks so much. You mentioned temper tantrums, 
and I just remind you that you might hear from the ranking 
member, Mr. Davis, a little bit later that will remind you 
about that.
    But wanted to ask this next question to Ms. Longoria and 
Ms. Marziani, and specific to Texas and Senate bill 7. We heard 
you speak about this, Ms. Longoria, restricting early voting 
hours, including Sunday mornings, which have been utilized for 
souls at the polls initiatives; prohibiting drive-thru voting; 
and reallocating polling places using racially discriminatory 
formulas, amongst other restrictions.
    If drive-thru or curbside voting was restricted, what 
impact would this have on disadvantaged communities, including 
communities of color?
    And a second question. As I am the only litigator on our 
side--I am the only person on our side not a litigator, so can 
you talk to me about the litigation and why litigation alone is 
going to be inadequate to challenge a law like SB7?
    Ms. Longoria to start, and then Ms. Marziani.
    Ms. Longoria. Absolutely. So we know that over 170,000 
people use drive-thru voting. Another basically 15,000 or so 
use those late-night and expanded hours. And so you are looking 
at literally hundreds of thousands of people who wouldn't have 
voted in November and wouldn't have voted in our May or 
December or July elections either.
    And so when we are looking at these impacts, if you cut 
these types of voting, you will affect the kinds of votings 
that we see at other--you know, compared to early voting in 
person. More communities of color, more people of color use 
methods that are easier, that are more accessible, and that, 
quite frankly, are just fun to use for voting, like drive-thru 
voting, 24-hour, those curbside methods, and our mail ballots.
    And as an elections administrator, it is all good and well 
to say, well, you can take it to the courts, but I have to do 
elections in 6 months. I have to do elections. Today is early 
voting for me in another election. So I don't have 6 months to 
3 years to wait for litigation to pan out. I need help today.
    Mr. Aguilar. Ms. Marziani.
    Ms. Marziani. Thank you. Yeah, I agree with all that. I 
mean, on litigation, you know, to be sure, there will be 
litigation against the State of Texas if SB7 is passed. But 
litigation is resource intensive. It is long, it is onerous. 
And as the Honorable Isabel Longoria pointed out, elections 
will pass during that time and people will likely be 
disenfranchised. So that is not a solution.
    I might also point out that curbside voting is a very 
particular type of voting. It is required under the Americans 
with Disabilities Act. Drive-thru voting is much broader. So 
it, for instance, encompasses someone like me with two kids 
under five in the scenario that we discussed. And so that is 
one of the reasons it is so very important to expand 
participation.
    Mr. Aguilar. Thanks so much, Ms. Marziani and Ms. Longoria.
    Mr. Chairman, I will yield back.
    Chairman Butterfield. Thank you, Mr. Aguilar.
    At this time, the chair recognizes the Ranking Member of 
the Subcommittee, Mr. Steil, five minutes.
    Mr. Steil. Thank you very much, Mr. Chairman.
    Ms. Longoria, I see your current role is with the election 
administration--you are the election administrator for Harris 
County. How long have you been in that role for?
    Ms. Longoria. Six months as the elections administrator, 
and another year total working on elections in Harris County, 
and then 10 years working on elections----
    Mr. Steil. No, no. I just wanted----
    Ms. Longoria [continuing]. And democracy here in Harris 
County.
    Mr. Steil. I only get five minutes. I got to keep it tight 
here. So you were not the election administrator for Harris 
County at the time of the November 2020 election. Is that 
correct?
    Ms. Longoria. I was the number three in the office.
    Mr. Steil. So you weren't the election administrator. You 
were obviously involved. I think that is helpful for us to 
know. So you have never been the election administrator for an 
election previously. Is that correct?
    Ms. Longoria. If you are asking about my resume, I can 
provide that to you. But, yes, I do run elections here in 
Harris County and have been deeply involved for the past 10 
years.
    Mr. Steil. But have you been an election administrator 
for--have you previously ever been the administrator for an 
election in your career?
    Ms. Longoria. Nope.
    Mr. Steil. It is not a problem if not.
    Ms. Longoria. Everyone's got to start somewhere, so I----
    Mr. Steil. Oh, no.
    Ms. Longoria [continuing]. Started 6 months ago as the 
elections administrator.
    Mr. Steil. Not a problem at all. Just want to make sure we 
are clear that, previously, you haven't had the opportunity 
yet, you will in the future, to be administrator for election. 
I think that is important for the record as we understand, you 
know, analysis of how we are doing this.
    Let me just dive in, though, for--in Harris County. Last 
year, Congress appropriated $400 million in the CARES Act 
emergency funds to States to assist with administering 
elections during a pandemic. And, according to the EAC, the 
State of Texas received $24.5 million in CARES Act funding.
    Do you know if Harris County received any portion of these 
funds, and, if yes, how much?
    Ms. Longoria. Sure. We received definitely funds from 
Federal, State, and even our local partners to administer the 
elections, and have since hosted four elections, or sorry--I am 
sorry--two more elections with all of those----
    Mr. Steil. But out of the CARES Act funding, out of the 
25--roughly $25 million that Texas received, do you know what 
Harris County received?
    Ms. Longoria. I can get you that number, sir.
    Mr. Steil. That would be great.
    Did Harris County receive funds for election administration 
from nongovernmental sources in 2020?
    Ms. Longoria. Yeah. We work with tons of national 
nonprofits and local nonprofits as well to host elections in a 
fair, accessible, and free manner here in Harris County.
    Mr. Steil. And, in particular, I believe Harris County 
received $9.6 million from one grant related to ultimately the 
donation of Mr. Zuckerberg. Is that correct?
    Ms. Longoria. You have asked me that already. Yes. We 
receive funds from multiple nonprofits to host elections----
    Mr. Steil. But----
    Ms. Longoria [continuing]. In Harris County for the 
Presidential and others as well.
    Mr. Steil. And $9.6 million ultimately came from Mr. 
Zuckerberg and paid for--my understanding, it paid for grants, 
including 24-hour polling locations, drive-thru voting, et 
cetera.
    Did--were some of these funds used to purchase ads on 
Facebook or any other social media platforms to increase voting 
turnout in Harris County?
    Ms. Longoria. We use funds to educate voters about their 
methods----
    Mr. Steil. But I just asked a----
    Ms. Longoria [continuing]. And options for voting in Harris 
County.
    Mr. Steil [continuing]. Yes or no. Were some of those funds 
used to purchase ads on Facebook?
    Ms. Longoria. Understood, sir. I am just trying to provide 
context on what we do in Harris County and why we have these 
methods of voting.
    Mr. Steil. You can follow up with written remarks as you 
like, but were funds used for Facebook ads, yes or no?
    Ms. Longoria. Yes, as in every election.
    Mr. Steil. So some of the funds coming from Mr. Zuckerberg 
were ultimately used to purchase Facebook ads. I think it is 
relevant to know.
    And was the grant solicited or unsolicited?
    Ms. Longoria. What do you mean by that question?
    Mr. Steil. Did you solicit a grant from--ultimately, from 
Mr. Zuckerberg's operation for the election?
    Ms. Longoria. I mean, I want to be clear.
    Mr. Steil. [Inaudible] Harris County [inaudible]
    Ms. Longoria. Again, we--we as a county do look to 
supplement the funds that we don't receive from, you know, 
State and Federal resources----
    Mr. Steil. So you solicit----
    Ms. Longoria [continuing]. To host free and fair--I am just 
trying to answer your question, Representative.
    Mr. Steil. Understood. So the county or the election 
administrators have solicited funds from private parties in the 
past to support the election operations of Harris County?
    Ms. Longoria. We don't solicit funds from private parties.
    Mr. Steil. Oh, you don't. Okay. You don't solicit funds 
from private parties. Okay.
    Let me just park this, because we have got limited time.
    I think it is interesting, and maybe it is something that 
this Committee should look into, about how private party funds 
are used. We have seen this in Wisconsin. We saw it in 
Milwaukee, in Madison, in Racine, Kenosha, Green Bay, and they 
shared about $6.3 million and some of that Federal funding as 
well. And I think it is an opportunity for our Committee to 
examine how those funds were used.
    In my very short amount of time left, let me just shift 
gears. I would like to just ask a quick question of Ms. Titus, 
if I can.
    You have been very involved in promoting elections. You 
have looked at how H.R. 1 in particular, I think, and how 
California has aspects of that. Some of the challenges that we 
see about unlimited ballot collections by third parties, can 
you just comment briefly--you spoke a little bit in your 
opening statement--just adding a little color to some of the 
challenges that we have--that you see, in particular in 
California, what would happen if we rolled that out nationwide?
    Ms. Titus. Well, first, as a general matter, I think it is 
interesting that H.R. 1 proposes to nationalize certain 
standards. And in 2020, there were numerous counties in 
California that had to seek waivers from the State's laws to--
because they simply couldn't comply with them, they didn't work 
for them geographically or demographically, and most of these 
were rural counties.
    And so it is often that these laws are written for more 
urban counties and urban voters, and they leave out and really 
do not serve the voters of more rural counties. And so for that 
reason, I just don't think it is a good idea to have a system 
of laws where we have to constantly seek waivers and exceptions 
to those laws. And so that is as a general matter.
    And then, more specifically----
    Mr. Steil. So--so, Ms. Titus, I would love to continue.
    I know we are going to upset the chairman if I go way 
beyond my time. So I am going to hold you there and look for 
you to add some--maybe some color in some written statements at 
the end.
    And, Mr. Chairman, in recognition of the time, I will yield 
back.
    Chairman Butterfield. I thank the gentleman.
    At this time, the chair recognizes Ms. Leger Fernandez for 
five minutes.
    Ms. Leger Fernandez. Thank you.
    Ms. Longoria, your testimony noted that Harris County had 
historic turnout due to innovations that intentionally and 
successfully increased minority voting. You then set out eight 
ways in which you believe SB7, as proposed by the Texas 
Republicans, was intended to impact minority, low-income voting 
suppression laws.
    Now, I would note that, as an election administrator and 
someone who helped administer elections in Harris County, you 
specifically called upon Congress to act.
    So in thinking about how we can act, let me ask you this: 
Do you believe that H.R. 1 and a revised Voting Rights Act 
would protect minority voting access?
    Ms. Longoria. I can't speak to all of the exact provisions 
in H.R. 1 or the revised Voting Rights Act specifically, but I 
will say that, yes, as I have stated, we need Federal 
intervention. I don't have time to wait for litigation to 
protect me in Texas.
    We already see that the Texas leadership is not going to 
act in a way, as they have stated in their own personal and 
public statements, right, in a way that is going to help 
protect these innovations. And, sadly, what we consider an 
innovation in Texas is standard practice in some parts of the 
country.
    And so I want to frame that as well that, though many parts 
of the country are good actors and doing what it takes to 
support voters, in Texas, we don't have that environment right 
now. And so that is why we need your help at the congressional 
and Federal level immediately.
    Ms. Leger Fernandez. Thank you, Ms. Longoria.
    Ms. Lang, your written testimony described how the 65-plus 
age requirements in Texas absentee ballot law especially hurt 
the Latino community. Can you describe why this is the case and 
if there are other examples of election laws with age 
requirements that disproportionately impact Latino or the 
minority voters?
    Ms. Lang. Yes. Thank you very much for that question.
    So CLC was involved in litigation about this particular 
issue representing LULAC and the interest of the Latino 
community.
    What was particularly pernicious was that the Latino 
community was facing these restrictions on vote by mail at a 
time when the Latino community was suffering from the effects 
of COVID-19, the worst in Texas.
    But at all times, these restrictions disproportionately 
affect Latinos because of the demographics in Texas. It just is 
the case that the Latino community, and to some lesser extent 
the Black community, in Texas are younger, and that is well-
known. And so the White community is disproportionately older. 
And so older, White Texans have had a free range to vote by 
mail while Latino voters largely could not, even though they 
often lived in multigenerational homes, and so they were 
putting at risk their older members.
    A number of other States have these types of age 
restrictions that, on their face, perhaps look reasonable, but 
underlying the demographics of age in our country lead to 
disproportionate effects on minority communities. It is the 
case in many States that Latino and Black communities are 
disproportionately younger than White communities in States 
that have these type of roles.
    Ms. Leger Fernandez. Thank you.
    I want to switch to issues relating to Native American 
Tribes. As my colleagues on the Committee know, I represented 
several Native American Tribes before joining Congress.
    You shared that, in 2018, a county recorder closed an early 
voting site for the Pascua Yaqui Tribe in Arizona, and this 
meant that 4,000 voters on the reservation had to travel at 
least 2 hours round trip by bus to vote early.
    Can you describe how the Shelby decision impacted the 
ability of Native Americans to vote?
    Ms. Lang. Absolutely. So this was just one example of many 
that we heard about earlier today on the first panel of 
closures that have affected minority communities, and this one 
was particularly problematic for the Pascua Yaqui Tribe in 2020 
when they were trying to reduce in-person voting on election 
day and an early voting location on the reservation would have 
made an enormous difference. Native Americans face a lot of 
issues in Arizona in particular, but across the country, of 
longer trips, a lot of polling places off-reservation that are 
not only long distances away but places where Native Americans 
often feel unwelcome. They are too often not granted polling 
place locations on the reservation where they can kind of have 
Native Americans be the workers there and have a more welcoming 
community.
    Ms. Leger Fernandez. Thank you.
    Ms. Daniels, you noted that protecting all, especially 
minority voting rights is not a partisan issue. I agree with 
you. Restricting our citizens' right to vote is not partisan; 
it is un-American.
    Mr. Chairman, I ask unanimous consent that the November 
2019 report ``We Vote, We Count: The Need for Congressional 
Action to Secure the Right to Vote for All Citizens'' by the 
Racial Equity Anchors Collaborative be added to the record.
    Chairman Butterfield. Without objection, the report will be 
received. Thank you.
    Ms. Leger Fernandez. Thank you very much. I yield.
    Chairman Butterfield. All right. At this time, the chair 
will recognize the Ranking Member of the full Committee, my 
good friend, Rodney Davis. Thank you.
    Mr. Davis. Okay. Thank you, my friend, Mr. Chairman.
    Ms. Longoria, just real quick, yes or no, I just want to 
make sure I heard something correctly because I don't have a 
lot of time either, and I have got to get to some other 
witnesses.
    Harris County did not solicit any private funds from Mark 
Zuckerberg, correct? They were unsolicited?
    Ms. Longoria. I think that is incredibly misleading, sir. 
Mark Zuckerberg was a part of a foundation and a nonprofit 
organization that created funds for election administrators 
across the county, and so we were able to receive some funds 
from that nonprofit.
    Mr. Davis. Mr. Chair, can I get some more time if I am not 
able to get a simple yes or no answer.
    Did Harris County solicit this foundation money that Mr. 
Zuckerberg is part of, or did you not? Was it just given to 
you, or did you solicit it? That is a simple answer.
    Ms. Longoria. I am unclear on what your definition of 
``solicit'' is. We do have to, like all nonprofits, apply for 
funds.
    Mr. Davis. So you did solicit that money. Okay. That is 
what I just wanted to clarify because on your application, you 
solicited it. Right?
    Ms. Longoria. Respectfully, it seems we disagree on the 
word of ``solicit.''
    Mr. Davis. Okay. Well, it is something that I think the 
Committee needs to look at whether or not funds are available 
to other rural communities and rural counties that may have 
some interest in having outside funding help with their 
election administration, Mr. Chair. I don't think it should be 
relegated to just more populated counties in this country.
    Now, I do want to say to my colleague--or to Ms. Titus, 
thank you for being here. Thanks for mentioning the ballot 
harvesting report, the California ballot harvesting report that 
the House Administration minority issued last Congress.
    Do you agree with the report's finding?
    Ms. Titus. Yes. The interesting experience that we had in 
California in 2020--and I am sure the members of the Committee 
are aware of, I guess, you could call it a controversy with the 
California Republican Party attempting to have its own drop-box 
program, is that when the California attorney general got 
involved, and as lawyers for the California Republican Party, 
we were on the phone with nine lawyers from the California 
department of justice, and all of the questions seemed to 
suggest that we should be following a number of protocols and 
safeguards that simply are not in the law. And while we didn't 
necessarily disagree with their implications, you know, they 
simply were not part of the law that was written, and yet they 
were intuitive. These were all safeguards that the lawyers on 
the phone seemed to think were the law, should be the law, and 
yet were not the law.
    And so California has this program that allows anybody to 
harvest ballots. A union member could walk up to a colleague's 
door, demand their ballot, encourage them to vote in a 
particular way. Political party operatives could do the same. 
There is really no requirement that somebody actually sign the 
outside of that person's ballot, that they tell the voter who 
they are, who they represent, whether they are being paid. 
There is no receipt. There is no chain of custody. There are 
literally zero safeguards in the law, except that they not be 
tampered with and that they be submitted to the Elections 
Office within 3 days.
    Beyond that, the law has no requirements. And yet while 
Democrats and union members were freely engaging in this 
activity without being harassed by State law enforcement, when 
the California Republican Party sought to implement it and, in 
fact, went above and beyond the law and the legal requirements, 
they were harassed by the Attorney General's Office, as well as 
district attorneys and elections officials on Twitter. One of 
our low-level field staff had his life turned upside-down. And 
yet other candidates for Congress who happened to have a D 
after their name were not subject to the same harassment.
    Mr. Davis. Interesting. Interesting to hear.
    Speaking of California statewide elected officials, 
according to information provided to us by the Secretary of 
State's office, former Secretary of State, now U.S. Senator 
Alex Padilla used $34 million of CARES Act funds that the State 
received to procure a contract with SKDKnickerbocker for the 
Secretary of States' Vote Safe California initiative. According 
to the contract, the scope of work included Get Out the Vote, 
which we all know what GOTV services are, and I know you know 
what they are, so SKDKnickerbocker's management of the 
leadership strategies for the Biden campaign, would you 
consider this a conflict of interest?
    Ms. Titus. Yes, absolutely. I mean, not only did you have a 
consulting firm that was working for the Democratic 
Presidential candidate, this firm was also working for a number 
of California Democratic congressional candidates, and yet they 
were hired by the State of California to perform this Get Out 
the Vote program. We don't know which voters they were actually 
trying to get out, although we have our suspicions. And even 
worse, they had to cover their tails after the fact because it 
turns out they spent the money improperly, and they needed to 
go back to the legislature months after they had committed 
these funds to SKDKnickerbocker, months after the program had 
ended and get the legislature to procure the fact that they 
really didn't have the appropriation to spend the money in the 
way that they had spent it. It was intended and originally 
appropriated to be spent by counties, and the State essentially 
stole it from the counties and had to fix it after the fact.
    Mr. Davis. Well, thank you for your time. Thank you for 
your response. I am out of time.
    I yield back, Mr. Chair.
    Chairman Butterfield. Thank you to the Ranking Member.
    At this time, the chair recognizes Ms. Scanlon for five 
minutes.
    Ms. Scanlon. Thank you, Mr. Chairman.
    I wanted to focus some of my questions on disability voting 
rights. I introduced the Disability Voting Rights bill, which 
was included in H.R. 1, and the Accessible Voting Act, both of 
which would help folks with disabilities, which include older 
Americans, veterans, et cetera, help them access and exercise 
their right to vote.
    Ms. Longoria, currently what are the options now for people 
with a disability to vote or register to vote in your 
jurisdiction?
    Ms. Longoria. In Harris County to register to vote, it all 
has to happen on pencil with pen. Even if you print your form 
online, you still have to do it with a wet signature. Folks 
with disabilities or maybe have physical impairments can get 
assistance or witnesses to help them out, but there is no 
online voter registration.
    When it comes to voting, there is a couple of options: 
Curbside voting, so that is for every in-person voting 
location, we have to have a buzzer outside where someone can 
drive up, hit that buzzer if they don't feel they can make it 
inside the location and request that a machine be brought out 
to them. We are happy to comply, but as you can imagine, taking 
a machine out from inside the location to bring it outside 
slows down voting both for the folks inside and outside, 
depending on how long the ballot is.
    Interestingly enough, Harris County I think is one of the 
few, if not the only county, still under preclearance with the 
DOJ specifically for ADA accessibility. So we already have to 
go through a very limited preclearance, so used to the 
paperwork, to make sure that all of our voting locations have 
accessible ramps and accessible means of voting for those who 
can make it inside a voting location either with an aide or 
not.
    And then drive-through voting, as was shared earlier, is 
available to everyone, including folks with disabilities or 
older Americans, which folks found extremely convenient to just 
drive up, not have to wait in lines, to have machines brought 
out to you and to use to vote, whether you are there with your 
senior who had, you know, a handicap placard, for example, or 
something else, and mail ballot voting, of course.
    Ms. Scanlon. Right. Yes, I mean, it is really interesting 
how when we pay attention to things like things that help folks 
with disabilities exercise their right to vote, it helps other 
people. Pennsylvania just put the voter registration 
application online, just making it that much easier to get 
access to. You know what? It was helpful to my college-age kids 
to be able to print out that application and get it done. So we 
do see that the benefits extend beyond just perhaps that 
targeted population. And the same, obviously, with the mail-in 
voting.
    How did the most recent Texas legislative session threaten 
to impact voters with disabilities?
    Ms. Longoria. In Senate bill 7, which, again, was stopped 
by a quorum but has been threatened to bring back in a special 
session, we saw requirements in there for voter ID expansion to 
applications, which, again, when you don't have online mail 
ballot applications, people would have to print out, scan, et 
cetera, all of their documents, include it in a piece of mail 
and send it in. There were restrictions on who qualified as 
disabled to use mail ballot voting, including people, in 
certain instances, taking them off, and then, on top of that, 
putting even more restrictions on assistance of caregivers who 
would drive people to vote or to do mail ballot voting by 
having to fill out paperwork, step out of the vehicle. So, if 
you imagine a senior living facility or an assisted living 
facility that brought a van of five people to come vote, then 
all of them would have to get out of the car while the person 
inside the car is voting and switch out who is allowed to be in 
the car if utilizing curbside voting.
    Ms. Scanlon. Wow. It is almost like people were trying to 
make it harder for certain groups of people to vote.
    You know what? I don't have any further questions at this 
time. So I would yield back.
    Thank you.
    Chairman Butterfield. Thank you. The gentlelady yields 
back.
    At this time, the chair recognizes himself for five short 
minutes.
    Let me begin with you, Professor Herron.
    Can you tell us a little bit more, please, about what your 
research says about the utilization of early voting by minority 
voters, racial minority voters? Just tell us what your research 
says about utilization of early voting.
    Mr. Herron. Sure. Thanks for that question.
    So some States keep track of the races of their voters, 
races and ethnicities. And my research uses that administrative 
data to track when people vote, and what we can see is that--
and this is drawn by other entrants in the literature as well--
that minority voters are disproportionately heavy users of 
early voting. Even within early voting periods, they are 
disproportionately often to vote on Sundays. We have already 
heard Souls of the Polls discussed, and there is some evidence 
on weekends in general. And so I would say that is the clear 
story here: Minorities vote very heavily on early voting.
    Chairman Butterfield. Thank you for that.
    Let me now go to Ms. Lang, if I may.
    Ms. Lang, in your voting rights litigation practice, to 
what extent have you seen jurisdictions restrict alternative 
options for voting, such as early voting and absentee voting, 
in a discriminatory way?
    Ms. Lang. Unfortunately, we are seeing it more and more. 
This is an area where, again, as Professor Herron explained, 
because voters of color are effectively using some of these 
mechanisms for voting, early voting and vote by mail, there 
have been increasing attempts to restrict access.
    So, for example, during 2020, I mentioned that after Harris 
County had already set up a number of early voting locations--
drop-box locations and early voting locations, the Governor 
suddenly announced that you could only have one drop box per 
county and severely restricted access to drop-box services and 
did so right in the middle of the election. And we saw 
something similar in Ohio. Of course, this had the biggest 
effect on cities that serve, you know, millions of people and 
can't do so with one drop-box effectively.
    Chairman Butterfield. Now, we all know that the Supreme 
Court has suspended the use of section 5, but section 2 
continues to be the law of the land, and it is being used very 
forcefully by some groups across the country. We are waiting to 
see what the Supreme Court is going to do in the Arizona case 
in the next few days, but we hope it will continue to be a very 
valuable resource.
    How do you utilize the existing protections, that is, 
section 2 in the Voting Rights Act, to litigate against 
discriminatory practices?
    Ms. Lang. Section 2 is absolutely critical to my voting 
rights practice, but there are obvious limitations to section 
2. For example, one of the most important section 2 cases I 
have ever litigated is the Texas voter ID case where the courts 
held that that law was discriminatory under section 2 of the 
Voting Rights Act and, therefore, unlawful. The district court 
held that, a Fifth Circuit panel held that, an en banc panel of 
the Fifth Circuit held that, and the Supreme Court denied 
Texas' attempt to bring it up to the Supreme Court. And, yet, 
that discriminatory law was in effect from when Shelby County 
was decided until the 2016 election. For years, elections went 
by with a law that every Federal court that saw it said was 
unlawful under section 2 until 2016 when we were finally able 
to get an injunction.
    So section 2 takes some time and, unfortunately, you know, 
can be eroded with Federal court interpretation. We are looking 
forward to hearing the Supreme Court's decision in Brnovich 
this month and hope that the Supreme Court takes the 
opportunity to strengthen section 2, since it is the only 
meaningful tool we have under Federal law to attack 
discriminatory voting laws.
    Chairman Butterfield. I certainly agree with you that we 
need to strengthen section 2 and not weaken it. As a voting 
rights attorney many, many years ago, I tried cases using the 
intents standard. I tried cases using the results standard, and 
I can tell you that it is very difficult at times to prove what 
is in the heart and minds of those who prepare election 
systems, but we certainly know the electoral result. So 
hopefully the Supreme Court will leave it intact.
    It appears that I am running out of time. And before I do 
so, I want to ask unanimous consent, if I can, to add an 
October 12 New York Times article, which is titled ``California 
Republican Party Admits It Placed Misleading Ballot Boxes 
around State,'' which is related to documents pertaining to 
election fraud committed by the California Republican Party 
related to ballot collection.
    I have that in front of me. It is a New York Times article, 
and I ask that it be included in the record.
    Thank you. Without objection, it will be received.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. My time has expired. At this time I 
will yield back the balance of my time.
    All right. Mr. Ranking Member, it looks like we are winding 
down.
    Is there anything administratively that we need to take 
care of before we close?
    Mr. Steil. I do not believe so on my end.
    Chairman Butterfield. All right. Let me close by first 
thanking all of today's witnesses for their very valuable 
testimony. Both panels have been just absolutely valuable--
invaluable.
    Thank you to the members for your questions as well. The 
members of the Subcommittee may have additional questions for 
these witnesses. And, if so, we will ask you to respond, that 
is the witnesses, to respond to those questions in writing.
    The hearing record will be open. It will be held open for 
those responses.
    And so it is good to see all of you today, and thank you 
for your participation. The Subcommittee on Elections of the 
Committee on House Administration, without objection, will now 
stand adjourned.
    We will see you next week.
    This Subcommittee is adjourned.
    [Whereupon, at 1:24 p.m., the Subcommittee was adjourned.]

      
                    QUESTIONS FOR THE RECORD
      
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                     

      

                  SUBMISSIONS FOR THE RECORD

=======================================================================

      

      

                      APPENDIX A

=======================================================================

    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

      

                      APPENDIX B

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
    

      

                     APPENDIX C

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
      

                    APPENDIX D

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
                  APPENDIX E

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
    

      

                 APPENDIX F

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       

      

           ADDITIONAL MATERIAL

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  
    
   
    

 
    
 
     
  
</pre></body></html>
